APPENDIX A
United States Court of Appeals, Fifth Circuit
Teresa BUCHANAN, Plaintiff - Appellant
v.
F. King ALEXANDER; Damon Andrew; A. G.
Monaco; Gaston Reinoso, Defendants - Appellees
No. 18-30148
|
FILED March 22, 2019
Appeal from the United States District Court for the
Middle District of Louisiana, Shelly Deckert Dick, U.S.
District Judge
Attorneys and Law Firms
Robert Corn-Revere, Esq., Ronald London, Lisa Beth
Zycherman, Davis Wright Tremaine, L.L.P.,
Washington, DC, for Plaintiff-Appellant.
Sheri Marcus Morris, Esq., Daigle, Fisse & Kessenich,
Baton Rouge, LA, Carlton Jones, III, Louisiana State
University Office of General Counsel, Baton Rouge,
LA, for Defendants-Appellees.
Nicholas J. Enoch, Attorney, Lubin & Enoch, P.C., El
Paso, TX, for Amicus Curiae American Association of
University Professors.
1a

Travis Christopher Barham, Alliance Defending
Freedom, Lawrenceville, GA, for Amici Curiae
National Association of Scholars and Alliance
Defending Freedom.
Niles Stefan Illich, Niles Illich, Dallas, TX, for Amici
Curiae Alliance Defending Freedom, National
Coalition Against Censorship, Woodhull Freedom
Foundation, Richard Fossey and David Bloomfield.
Before WIENER, SOUTHWICK, and COSTA, Circuit
Judges.
Opinion
WIENER, Circuit Judge
Plaintiff-Appellant Dr. Teresa Buchanan (“Dr.
Buchanan”) was fired from her tenured professorship
by the Board of Supervisors (“the Board”) of Louisiana
State University and Agricultural and Mechanical
College (“LSU”) in June 2015. In January 2016, Dr.
Buchanan filed the instant lawsuit against (1) F. King
Alexander (“President Alexander”), President and
Chancellor of LSU; (2) Damon Andrew (“Dean
Andrew”), Dean of the College of Human Sciences and
Education at LSU; (3) A.G. Monaco (“Vice Chancellor
Monaco”), Vice Chancellor of the Office Human
Resource Management at LSU; and (4) Gaston Reinoso
(“Director Reinoso”), Director of the Office of Human
Resource Management and Executive Director of
Equal Employment Opportunities at LSU (collectively
“Defendants”). Dr. Buchanan alleged (a) that
2a

Defendants violated her First and Fourteenth
Amendment right to free speech and academic freedom
(the “as-applied challenge”), (b) that Defendants
violated her Fourteenth Amendment procedural and
substantive due process rights, and (c) a facial
challenge to LSU’s sexual harassment policies (the
“facial challenge”). Dr. Buchanan sought
reinstatement and declaratory and injunctive relief.
On cross-motions for summary judgment, the district
court granted Defendants’ motion and dismissed Dr.
Buchanan’s claims. Dr. Buchanan now appeals that
decision.
I. FACTS AND PROCEEDINGS
A. Factual Background
Before she was fired, Dr. Buchanan was an associate
professor at LSU with tenure. She taught in the Early
Childhood Program for teacher education. In
November 2013, LSU received a complaint from the
superintendent of a local public school district
regarding Dr. Buchanan’s “professionalism and her
behavior” when she visited schools in his district. LSU
also received complaints from some of Dr. Buchanan’s
students regarding her classroom behavior. One
student complained about Dr. Buchanan’s comments
regarding the student’s sexual relationship with her
fiancé.1 Another student complained that Dr.

1

“According to Student 1: ‘Dr. Buchanan had offered them
condoms, had told them it was unacceptable to become pregnant.
And that if you chose to become a mother, that your grades would

3a

Buchanan recorded her crying *851 during an
assessment team meeting.2 LSU had received a letter
in 2012 from a group of students complaining that Dr.
Buchanan made offensive classroom comments, such
as (1) “a woman is thought to be a dike if she wears
brown pants”; (2) “it was a choice to be in the program
and it was not the fault or problem of the professors if
any of us chose to be mommies or wives and not to
expect to get an A in the class”; and (3) use of “extreme
profanity on a regular basis.”
These complaints were reported to Associate Dean
Jennifer Curry (“Dean Curry”) who discussed them
with Dr. Earl Cheek (“Dr. Cheek”), Director of the
College of Education. After learning of these incidents,
Dean Andrew directed Dean Curry to gather the
complaints; he then consulted with Human Resources.3
In December 2013, Dean Andrew told Dr. Buchanan
that she would be removed from the classroom during
a human resources investigation. Director Reinoso
investigated to determine whether Dr. Buchanan had
suffer for that. She told them ... enjoy the sex while the sex is –
good. If you’re dating – if you’re dating, make sure the sex is good,
something along those lines.’ ” Dr. Buchanan further told the
student that her fiancé was “supportive now while the sex is good,
but just wait until you’re married five years.”
2

This student claimed that Dr. Buchanan was aggressive during
the meeting and yelled at her. The student stated that she felt
attacked.

3

While gathering the complaints, Dean Curry was informed that
Dr. Buchanan “was no longer authorized to be on any Iberville
Parish school campus.”

4a

violated LSU policies, interviewed witnesses, and
wrote a report. Dean Andrew reviewed Director
Reinoso’s report and recommended appointment of a
Faculty Senate Grievance Committee (“Faculty
Committee”) under LSU’s Policy Statement-104 for
Dismissal for Cause of Faculty. In January 2014, Dr.
Buchanan met with Director Reinoso and other human
resources managers to discuss the complaints.
In May 2014, Director Reinoso sent a memorandum to
Dr. Buchanan which stated that he found her “actions
and behavior ... inappropriate, unwelcome, and a
direct violation of the University’s Policy Statements
on Sexual Harassment, PS-73 and PS-95” and her
“reported communication style with students, faculty,
and outside administrators ... to be inappropriate.” In
June 2014, Dean Andrew met with Dr. Buchanan to
discuss Director Reinoso’s report, and they
subsequently communicated about the report in
writing. In July 2014, Dean Andrew recommended to
Provost Stuart Bell that Dr. Buchanan be dismissed
for cause. Provost Bell then requested and impaneled
a Faculty Committee.
In March 2015, the Faculty Committee held a lengthy
hearing regarding Dr. Buchanan’s classroom behavior.
The Faculty Committee concluded that Dr. Buchanan
had violated LSU’s sexual harassment policies, PS-73
and PS-95, “through her use of profanity, poorly
worded jokes, and sometimes sexually explicit ‘jokes.’”
The Committee also found that Dr. Buchanan had
created a “hostile learning environment.” The
Committee recommended censure.
5a

In April 2015, despite the Faculty Committee’s censure
recommendation, President Alexander informed Dr.
Buchanan that he was going to recommend to the
Board that she be dismissed for cause and violations of
LSU’s policies and the Americans with Disabilities Act
(“ADA”).4 Dr. *852 Buchanan appealed this
recommendation and addressed the Board. The Board
fired Dr. Buchanan in June 2015.
B. Procedural Background
Dr. Buchanan filed this lawsuit after she was fired.
The parties filed cross-motions for summary judgment.
The district court denied Dr. Buchanan’s motion and
granted Defendants’ motion, holding that: (1) for
purposes of these Defendants’ qualified immunity,
liability for retaliation in violation of the First
Amendment based on a defendant’s merely causing an
adverse employment action was not clearly
established, (2) there was no evidence of a violation of
Dr. Buchanan’s First Amendment right to academic
freedom, (3) LSU’s sexual harassment policies were
not facially overbroad, (4) LSU’s sexual harassment
policies as applied to Dr. Buchanan did not violate her
First Amendment rights, and (5) Defendants did not
violate Dr. Buchanan’s right to procedural due

4

The Faculty Committee also investigated whether Dr. Buchanan
violated the ADA by revealing a student’s medical information to
other students. The Committee found insufficient evidence to
establish an ADA violation.

6a

process.5 Dr. Buchanan now appeals the district court’s
denial of her facial and as-applied challenges to LSU’s
sexual harassment policies and the district court’s
holdings that Defendants are not personally liable.
II. LAW AND ANALYSIS
A. As-Applied Challenge
[1] [2] [3]When a litigant brings both as-applied and
facial challenges, we generally decide the as-applied
challenge first because it is the narrower
consideration.6 The Fifth Circuit reviews summary
judgments de novo7 and cases raising First
Amendment issues by examining the whole record.8
[4] [5]The Supreme Court has established that
academic freedom is “a special concern of the First
Amendment, which does not tolerate laws that cast a
pall of orthodoxy over the classroom.”9 Accordingly,

5

Buchanan v. Alexander, 284 F.Supp.3d 792 (M.D. La. 2018).

6

Serafine v. Branaman, 810 F.3d 354, 362 (5th Cir. 2016).

7

MacLachlan v. ExxonMobil Corp., 350 F.3d 472, 478 (5th Cir.
2003), abrogated on other grounds by Crowell v. Shell Oil Co., 541
F.3d 295 (5th Cir. 2008).

8

Denton v. Morgan, 136 F.3d 1038, 1042–43 (5th Cir. 1998).

9

Keyishian v. Bd. of Regents, 385 U.S. 589, 603, 87 S.Ct. 675, 17
L.Ed.2d 629 (1967).

7a

“classroom discussion is protected activity.”10 However,
even this protection has limits: Students, teachers, and
professors are not permitted to say anything and
everything simply because the words are uttered in the
classroom context.11
*853 [6] [7] [8] [9] [10]Public university professors are
public employees. To establish a § 1983 claim for
violation of the First Amendment right to free speech,
they must show that (1) they were disciplined or fired
for speech that is a matter of public concern, and (2)

10

Kingsville Indep. Sch. Dist. v. Cooper, 611 F.2d 1109, 1113 (5th
Cir. 1980).

11

See, e.g., Bethel Sch. Dist. No. 403 v. Fraser, 478 U.S. 675, 106
S.Ct. 3159, 92 L.Ed.2d 549 (1986) (holding that student could not
claim First Amendment protection for offensively lewd and
indecent speech); Martin v. Parrish, 805 F.2d 583 (5th Cir. 1986)
(holding that professor had no First Amendment right to use
profane language in the classroom). In his book, Democracy,
Expertise, and Academic Freedom, Robert C. Post, Yale Law
Professor and former Dean of Yale Law School and general
counsel for the AAUP, discusses the limits of First Amendment
academic freedom. He notes that the value of academic freedom
depends on universities holding professors to professional
standards in contrast with the traditional First Amendment value
of the free marketplace of ideas. Therefore, “[t]he right question
for courts to ask about academic freedom is how to fashion
doctrine that best protects the ‘freedom of thought, of inquiry ... of
the academic profession.’ ” Robert C. Post, Democracy, Expertise,
and Academic Freedom: A First Amendment Jurisprudence for the
Modern State 67, 80 (2012) (quoting the 1915 Declaration of
Principles on Academic Freedom and Academic Tenure reprinted
in American Association of University Professors, Policy
Documents and Reports 291-301 (9th ed. 2001)).

8a

their interest in the speech outweighed the university’s
interest in regulating the speech.12 The first question,
asking whether the professor’s speech is protected as
a matter of public concern, is a question of law.13
The inquiry into whether Plaintiff’s
interests in speaking outweigh the
College’s interests in regulating
Plaintiff’s speech is a factual
determination conducted under the well
known Pickering[-Connick] balancing
test. ... If Plaintiff’s interests in the
prohibited speech outweigh the College’s
interests, then Plaintiff’s First
Amendment rights have been violated. ...
If the First Amendment violation was a
substantial or motivating factor in
Defendants’ disciplinary action against
Plaintiff, Defendants may present
evidence that they would have
disciplined Plaintiff in the absence of his
protected conduct. ... However, if
Plaintiff’s speech does not involve a
matter of public concern, it is
unnecessary for the court to scrutinize

12

See Connick v. Myers, 461 U.S. 138, 147–50, 103 S.Ct. 1684, 75
L.Ed.2d 708 (1983); Pickering v. Bd. of Educ., 391 U.S. 563, 568,
88 S.Ct. 1731, 20 L.Ed.2d 811 (1968); Martin, 805 F.2d at 584.

13

Connick, 461 U.S. at 148 n.7, 103 S.Ct. 1684; Tompkins v.
Vickers, 26 F.3d 603, 606 (5th Cir. 1994).

9a

the reason for the discipline.14
[11] [12] [13] [14]If Dr. Buchanan did not speak as a
citizen on a matter of public concern, then she has no
First Amendment claim for LSU’s response to her
speech.15 “[W]hether an employee’s speech addresses
a matter of public concern must be determined by the
content, form, and context of a given statement, as
revealed by the whole record.”16 “Speech involves a
matter of public concern when it involves an issue of
social, political, or other interest to a community.”17
When a public employee speaks in his capacity as an
employee and on personal matters, rather than in his
capacity as a citizen on a matter of public interest, his
speech falls outside the protection of the First
Amendment.18 A mere element of personal concern,
14

Bonnell v. Lorenzo, 241 F.3d 800, 810 (6th Cir. 2001) (citing
Pickering, 391 U.S. at 568, 88 S.Ct. 1731; Dambrot v. Cent. Mich.
Univ., 55 F.3d 1177, 1186 (6th Cir. 1995); Mt. Healthy City Sch.
Dist. Bd. of Educ. v. Doyle, 429 U.S. 274, 285, 97 S.Ct. 568, 50
L.Ed.2d 471 (1977); Connick, 461 U.S. at 146, 103 S.Ct. 1684).

15

See Connick, 461 U.S. at 147–48, 103 S.Ct. 1684.

16

Id. at 147–48, 103 S.Ct. 1684.

17

Adams v. Trustees of the Univ. of N.C.–Wilmington, 640 F.3d
550, 564 (4th Cir. 2011) (quoting Kirby v. City of Elizabeth City,
388 F.3d 440, 446 (4th Cir. 2004)) (citing Connick, 461 U.S. at 146,
103 S.Ct. 1684).
18

Kennedy v. Tangipahoa Parish Library Bd. of Control, 224 F.3d
359, 366 (5th Cir. 2000), abrogated on other grounds by Gibson v.
Kilpatrick, 838 F.3d 476 (5th Cir. 2016) (citing Connick, 461 U.S.
at 147, 103 S.Ct. 1684).

10a

however, does not prevent finding that an employee’s
speech as a whole includes a matter of public
concern.19
[15]We agree with the district court here that Dr.
Buchanan’s use of profanity and discussion of her sex
life and the sex lives of her students was not related to
the subject matter or purpose of training Pre-K–Third
grade teachers. This court has held that, in the college
classroom context, speech that does not serve an
academic purpose is not of public concern.20 Dr.
Buchanan *854 would rely on the Ninth Circuit’s
holding in Cohen v. San Bernardino Valley College21

19

Id. at 365.

20

Martin, 805 F.2d at 585 (holding that a professor’s use of
profanity to castigate his students was not a matter of public
concern because it served no academic purpose); see also Bonnell,
241 F.3d at 820 (holding that a professor “may have a
constitutional right to use words such as ‘pussy,’ ‘cunt,’ and ‘fuck,’
but he does not have a constitutional right to use them in a
classroom setting where they are not germane to the subject
matter”); Dambrot, 55 F.3d at 1190 (holding that “[a]n instructor’s
choice of teaching methods does not rise to the level of protected
expression”); cf. Hardy v. Jefferson Cmty. Coll., 260 F.3d 671, 682
(6th Cir. 2001) (holding that a professor’s right to use vulgarity
and racial slurs during analysis of the historical use of oppressive
and marginalizing language was protected speech); Kerr v. Hurd,
694 F.Supp.2d 817, 842–43 (S.D. Ohio 2010) (holding that
discussion and advocacy of a medical technique during classroom
instruction was a matter of public concern because it was relevant
to a national debate on best practices for delivering babies).
21

92 F.3d 968 (9th Cir. 1996) (discussing discipline of a college
professor for his use of profanity, discussion of pornography, and

11a

that a university’s sexual harassment policy was
“simply too vague as applied ... [because the
professor’s] speech did not fall within the core region
of sexual harassment as defined by the Policy.”22 Dr.
Buchanan’s speech is easily distinguished from
Professor Cohen’s speech. In Cohen, the use of
profanity and discussion of controversial viewpoints
was “at least tangentially related” to teaching collegelevel English.23 Here, the use of profanity and
discussion of professors’ and students’ sex lives were
clearly not related to the training of Pre-K–Third
grade teachers. Dr. Buchanan’s speech was not,
therefore, a matter of public concern; we thus affirm
the district court’s holding that LSU’s policies did not
violate the First Amendment as applied to Dr.
Buchanan because her speech was not protected.
B. Facial Challenge
[16]“Generally, we ‘proceed to an overbreadth issue’
only if ‘it is determined that the statute would be valid
as applied.’”24 Here, because Dr. Buchanan’s as-applied

assertion of other controversial viewpoints during class discussion
in a college-level English class).
22

Id. at 972 (reasoning that the vagueness of the policy did not
provide notice to the professor that it would be applied to his
“longstanding teaching style”).
23

Buchanan, 284 F.Supp.3d at 834.

24

Serafine, 810 F.3d at 362–63 (quoting Bd. of Trs. v. Fox, 492
U.S. 469, 484–85, 109 S.Ct. 3028, 106 L.Ed.2d 388 (1989)).

12a

challenge fails, we proceed to consideration of the
facial overbreadth challenge.
[17] [18]Dr. Buchanan sued the wrong parties. The
proper defendants to a facial challenge are the parties
responsible for creating or enforcing the challenged
law or policy.25 In Jordahl v. Democratic Party of
Virginia, the Fourth Circuit held that the plaintiffs
had failed to present a facial challenge.26 Those
plaintiffs had sued the Democratic Party of Virginia
(“DPV”) alleging a violation of their free speech rights
after the DPV sought injunctions “forbidding the
plaintiffs from distributing [voter] guides.”27 The
appeals court reasoned that, even though the DPV was
the direct actor seeking enforcement of state statutes
and an injunction against plaintiffs, it was not the
proper party to a facial challenge.28 Similarly, when
professors or students challenge a university’s policies,
*855 the proper defendant party is the university or
university board.29
25

See Jordahl v. Democratic Party of Va., 122 F.3d 192, 199 n.6
(4th Cir. 1997) (reasoning that for a facial challenge to a state law,
the proper party was the state rather than the party seeking an
injunction under the law).
26

Id. at 199.

27

Id. at 194.

28

Id. at 194, 199 n.6.

29

See e.g., DeJohn v. Temple Univ., 537 F.3d 301 (3rd Cir. 2008)
(deciding graduate student’s facial challenge to university’s sexual
harassment policy brought against university); Piggee v. Carl

13a

[19]Here, Dr. Buchanan has sued only employees and
officials with individual and limited roles in
administration of LSU’s polices, but with no ultimate
authority to enforce them. She failed to sue the Board
of Supervisors, which is responsible for the creation
and enforcement of the policies.30 The Board, therefore,
is the only proper party defendant to a facial challenge
to LSU’s policies.31 We therefore vacate the district
court’s ruling on the facial challenge and dismiss that
Sandburg Coll., 464 F.3d 667 (7th Cir. 2006) (deciding professor’s
challenge to college’s sexual harassment policy brought against
college); Saxe v. State Coll. Area Sch. Dist., 240 F.3d 200 (3rd Cir.
2001) (deciding students’ facial challenge to school district’s antiharassment policy brought against school district); Dambrot, 55
F.3d 1177 (deciding coach’s challenge to university’s harassment
policy brought against university).
30

The Louisiana Constitution grants the LSU Board of
Supervisors the authority to “supervise and manage” the school.
La. Const. art. VIII, § 7. The Board of Supervisors’ Bylaws state
that the President establishes administrative and educational
policies subject to the direction and control of the Board. Bylaws,
Board of Supervisors, LSU, LSU.edu (Dec. 12, 2018, 3:01 PM),
https://lsu.edu/bos/docs/bylaws-adopted-2018-10-04.pdf. LSU PS104 states that a recommendation to dismiss a tenured faculty
member for cause requires confirmation by the Board.
31

We distinguish this case from Esfeller v. O’Keefe, 391 F. App’x
337 (5th Cir. 2010) (unpublished). In Esfeller, a student brought
a facial challenge to LSU’s Student Code of Conduct. The student
sued the LSU Board of Supervisors, and the district court
dismissed the Board. On appeal his court held that the Code was
not facially overbroad. There, the plaintiff student did not appeal
dismissal of the Board, and, unlike the policy in this case, the
university president had ultimate authority to enforce the Code.

14a

claim for Dr. Buchanan’s has failure to sue the proper
party.
C. Qualified Immunity
We need not address the district court’s holding on
qualified immunity because Dr. Buchanan’s claims
fail. We nevertheless affirm that all Defendants are
entitled to qualified immunity on her damages claims.
[20] [21] [22]The qualified immunity inquiry comprises
two questions: (1) “whether the defendant violated the
plaintiff’s constitutional rights” and (2) whether that
right was clearly established.32 “We now have
discretion to skip the first inquiry and resolve a case
solely on clearly established grounds.”33 Before this
court issued its 2018 opinion in Sims v. City of
Madisonville, the law was unsettled whether a
nondecisionmaker defendant who only recommended
that a plaintiff be fired could be held liable for a § 1983
First Amendment claim34:
Although [Sims] clarif[ied] that Jett controls ..., it
provides no recourse to [Buchanan]. That is because of
the second part of the qualified immunity inquiry,
which requires a plaintiff to show that any violation of
32

Sims v. City of Madisonville, 894 F.3d 632, 638 (5th Cir. 2018).

33

Id. (citing Pearson v. Callahan, 555 U.S. 223, 240, 129 S.Ct. 808,
172 L.Ed.2d 565 (2009)).
34

Sims, 894 F.3d at 638, 640; Culbertson v. Lykos, 790 F.3d 608,
627 (5th Cir. 2015).

15a

rights was clearly established at the time the conduct
occurred. When [Buchanan] was terminated in [June
2015] the inconsistency in our law on whether First
Amendment liability can attach to a public official
*856 who did not make the final employment decision
had not been resolved. ... If judges have mixed up
principles of ... liability in this area and failed to
recognize Jett as the controlling decision, [school]
officials should not be expected to have a more
nuanced understanding of section 1983 law.35
Although the district court did not discuss this
unsettled matter of law in its reasoning on qualified
immunity, its holding that Defendants’ acts were
objectively reasonable considering clearly established
law at the time was not error.
III. CONCLUSION
The district court correctly concluded that Dr.
Buchanan’s speech was not protected by the First
Amendment. The district court’s holding on the asapplied challenge is AFFIRMED. On the facial
challenge, Dr. Buchanan has not sued the proper
party. The district court’s holding on the facial
challenge is VACATED and Dr. Buchanan’s claim is
DISMISSED on this alternate ground.

35

Sims, 894 F.3d at 641.

16a

APPENDIX B
United States District Court, M.D. Louisiana
Teresa BUCHANAN
v.
F. King ALEXANDER, Damon Andrew, A.G.
Monaco, and Gaston Reinoso
CIVIL ACTION 16–41–SDD–EWD
|
Signed 01/10/2018
Attorneys and Law Firms
*798 Floyd J. Falcon, Jr., Avant & Falcon, Baton
Rouge, LA, Lisa B. Zycherman, Pro Hac Vice, Robert
Corn–Revere, Pro Hac Vice, Ronald G. London, Pro
Hac Vice, Davis Wright Tremaine LLP, Washington,
DC, for Plaintiff.
Sheri M. Morris, Daigle, Fisse & Kessenich, Carlton
Jones, III, Louisiana State University, Baton Rouge,
LA, for Defendant.
RULING
JUDGE SHELLY D. DICK, UNITED STATES
DISTRICT COURT
This matter is before the Court on the cross Motions
17a

for Summary Judgment1 by Defendants, F. King

Alexander, Damon Andrew, A.G. Monaco, and Gaston
Reinoso (“Defendants”) and Plaintiff, Teresa Buchanan
(“Plaintiff”). The parties have filed Oppositions2 and
Replies3 to the cross-motions. On September 25, 2017,
the Court held Oral Argument on limited issues raised
in the Parties’ motions, and the Court allowed the
Parties to submit post-hearing memoranda.4 The Court
has considered all of the evidence presented, the
arguments of counsel, and the law as applied to the
undisputed facts of this case. For the following
reasons, the Court finds that summary judgment
should be granted in favor of the Defendants.
I. FACTUAL BACKGROUND
This lawsuit arises out of the termination of Plaintiff’s
position of tenured professor by the Board of
Supervisors (“the Board”)5 of Louisiana State

1

Rec. Doc. Nos. 30 & 35. Defendants also moved for judgment on
the pleadings (Rec. Doc. No. 26) which appears to have been
improperly terminated by Rec. Doc. No. 32. However, because
these issues are covered by the parties’ cross-motions for summary
judgment, the Court will address those matters herein.

2

Rec. Doc. Nos. 42 & 43.

3

Rec. Doc. Nos. 46 & 47.

4

Rec. Doc. Nos. 60 & 61.

5

The Board is a constitutionally created entity required “to
supervise and manage the institutions ... administered through its
system,” La. Const. Art. 8 § 7, including LSU. La. R.S. 17:3215(1).

18a

University and Agricultural and Mechanical College
(“LSU”).6 The Defendants are: F. King Alexander
(“Alexander”), President and Chancellor of LSU;
Damon Andrew (“Dean Andrew”), Dean of the College
of Human Sciences and Education at LSU; A.G.
Monaco (“Monaco”), the Vice *799 Chancellor of the
Office of Human Resource Management at LSU; and
Gaston Reinoso (“Reinoso”), the Director of the Office
of Human Resource Management and Executive
Director of Equal Employment Opportunities at LSU.
Plaintiff joined the faculty of LSU in 1995 and was
promoted to Associate Professor with tenure in 2001.7
Plaintiff created LSU’s “Early Childhood Program,” a
teacher education program for pre-school through
third-grade instruction known as the “PK–3”
program.8 Plaintiff is widely published in top academic
journals and claims she had demonstrated significant
success in securing funding for both her research and
early childhood initiatives at LSU.9 Prior to the
inception of the underlying conduct at issue, Plaintiff
was recommended for a promotion to Full Professor
following a review process that included the approvals
of a Tenure and Promotion Committee, the Director of
the School of Education, and the Dean of the College of

6

Rec. Doc. No. 36–1, ¶ 155.

7

Rec. Doc. No. 36–1, ¶¶ 1–3.

8

Id. ¶¶ 10–12.

9

Id. ¶¶ 4–9.

19a

Human Sciences and Education, Defendant Andrew.10
However, Dean Andrew later rescinded this
recommendation.11
In mid–November 2013, Ed Cancienne (“Cancienne”),
Superintendent of the Iberville Parish Schools District,
complained about Plaintiff’s “professionalism and her
behavior” during her visits to schools in his district
while she was overseeing the PK–3 program.12
Cancienne was reportedly very upset because he heard
that Plaintiff had been condescending to the teachers
during her site visits with LSU student teachers and
their mentor teachers.13 Plaintiff claims that, in
response to this complaint, she attempted to “smooth
Cancienne’s ruffled feathers”14 by an email on that
same day wherein she apologized for any offense and
affirmed that his Parish was “full of excellent teachers
and very bright students.”15 Despite this apology,
Plaintiff contends Cancienne called her personal cell
phone and demanded that she come to his office and
discuss the matter “just the two of us.”16 Plaintiff
10

Id. ¶¶ 13–15.

11

See Rec. Doc. No. 14, ¶ 18.

12

Rec. Doc. No. 36–1, ¶¶ 16–18.

13

Id. ¶¶ 18–21.

14

Rec. Doc. No. 35–1, p. 2.

15

Rec. Doc. No. 36–1, ¶ 24.

16

Id. ¶ 25.

20a

admits she had no desire to meet with Cancienne alone
as she had previously reported to Associate Dean
Jennifer Curry (“Curry”) that Cancienne had flirted
with her and she thought him “creepy.”17 Plaintiff
maintains that Curry and another female LSU faculty
member shared this view of Cancienne.18
After Cancienne and Plaintiff spoke on the phone
about this incident, Cancienne called Curry to
complain that he had been advised that, while Plaintiff
was at an Iberville school to assess a PK–3 program
student teacher, Plaintiff referred to Cancienne as
“crazy”, “talked awful about our schools,” and used the
word “pussy three times.”19 In fact, Plaintiff claims
Cancienne advised Curry that if Plaintiff returned to
Iberville schools, he would “have *800 her arrested.”20
While Cancienne clearly objected to Plaintiff’s use of
the term “pussy,” he claimed that he did not believe it
was used in a sexual context or to engage in sexual
harassment, but was used as part of Plaintiff’s
instruction to student teachers regarding coping with
parents who may use different vocabularies.21 Plaintiff
claims that LSU investigators never inquired into the
nature of Cancienne’s complaints and only assumed,

17

Id. ¶ 22.

18

Id. ¶ 22–23.

19

Id. ¶ 28.

20

Id. ¶ 29.

21

Id. ¶¶ 39–40.

21a

without supporting evidence, that Plaintiff’s use of the
word “pussy” was slang for female genitalia.22 Further,
Plaintiff contends that no one at LSU inquired into the
actual nature of Cancienne’s concerns, which she
claims were primarily based on Plaintiff’s criticism of
his school and teachers and not related to any kind of
sexual harassment.23
Student complaints also formed the basis of the
investigation into Plaintiff’s conduct. Curry testified
that two of Plaintiff’s students requested a meeting to
discuss their complaints about Plaintiff’s classroom
behavior. Student 1 claimed she was offended by
Plaintiff’s comments about Student 1’s sexual
relationship with her fiancé. Student 1 stated that she
was humiliated by Plaintiff’s references to her sexual
relationship in front of her classmates. According to
Student 1:
Dr. Buchanan had offered them condoms,
had told them it was unacceptable to
become pregnant. And that if you chose
to become a mother, that your grades
would suffer for that. She told them ...
enjoy the sex while the sex is—good. If
you’re dating—if you’re dating, make
sure the sex is good, something along

22

Id. ¶¶ 37; 42–43.

23

Id. ¶ 42.

22a

those lines.24
Student 1 was also particularly offended when, after
having advised Plaintiff that her fiancé was very
supportive, Plaintiff allegedly responded, “yeah, he’s
supportive now while the sex is good, but just wait
until you’re married five years.”25 Curry testified that
Student 1 stated: “I don’t know who she is to make
these assumptions about me, and to say it in front of a
room full of people.”26
Student 1 also reported to Curry that Plaintiff had
recorded a student (Student 2) crying during an
assessment team meeting and played the recording
back for the student.27 Student 2 met with Curry and
complained that Plaintiff had intimidated and
demeaned her by video recording this incident during
a team assessment meeting. Regarding this incident,
Dr. Curry testified:
... during her assessment team meeting,
[the student] began to cry. She said that
Dr. Buchanan was yelling at her. And
that when she started to cry, Dr.
Buchanan got out her cell phone and did
24

Rec. Doc. No. 65–4, p. 2; Deposition of Jennifer Curry, p. 69,
lines 3–10.
25

Id. at p. 4; Deposition of Curry, p. 71, lines 19–21.

26

Id.; Deposition of Curry, p. 71, lines 22–24.

27

Id.; Deposition of Curry, p. 69, lines 13–16.

23a

not ask her, but started to record her
crying and then played it back for her,
she said, look at yourself, look at
yourself, you need to check yourself in
somewhere and get help, get a break.28
Curry further testified that Student 2 reported that
this meeting was “mortifying,”29 and that:
*801 Terry [Plaintiff] was extremely
aggressive during this assessment team
meeting. She said every time she tried to
talk, Terry would say, shut up, you’re not
listening, be quiet, be quiet, like
screaming at her, very aggressive. She
said it was more than intimidating. Like
she felt attacked, fearful.30
Plaintiff claims that no administrator met with her to
discuss these allegations, and they never disclosed to
her these student complaints.31 However, Plaintiff does
not deny that these incidents took place. Plaintiff
acknowledges that the administration obtained a
written complaint in the winter of 2012 purporting to
represent the views of Plaintiff’s “Junior PK–3 Cohort”
complaining that Plaintiff made several offensive
28

Id.; Deposition of Curry, p. 70, lines 14–21.

29

Id. at p. 5; Deposition of Curry, p. 72, line 3.

30

Id.; Deposition of Curry, p. 72, lines 6–12.

31

Rec. Doc. No. 36–1, ¶ 48.

24a

comments, such as: (1) stating that “a woman is
thought to be a dike if she wears brown pants”; (2) “it
was a choice to be in the program and it was not the
fault or problem of the professors if any of us chose to
be mommies or wives and not to expect to get an A in
the class”; and (3) that Plaintiff used “extreme
profanity on a regular basis.”32 Plaintiff contends “[i]t
was never established the letter actually came from a
‘cohort’ and was not just a random complaint from a
disgruntled student.”33 Further, Plaintiff contends that
there is no evidence that this student or cohort was
speaking on behalf of anyone other than him/herself.34
Curry reported the student complaints to Dean
Andrew who subsequently met with Dr. Earl Cheek
(“Dr. Cheek”), Director of the College of Education,
regarding same. Curry testified that Dr. Cheek
advised that between ten and twelve students had
come to his office and reported similar complaints
about Plaintiff’s behavior and her “talking about sex.”35
Dr. Cheek further reported that local elementary
school administrators had requested that Plaintiff not
mentor students on their campuses. According to
Curry, Dr. Cheek claimed he had relayed these
complaints to Dean Lindsay (who preceded Dean
Andrew) and to Human Resources but was advised
32

Id. ¶ 49.

33

Rec. Doc. No. 35–1, p. 12, n. 5.

34

Rec. Doc. No. 36–1, ¶¶ 50–51.

35

Rec. Doc. No. 65–4, p. 6; Deposition of Curry, p. 80, lines 18–19.

25a

nothing could be done because Plaintiff was tenured.36
The Investigation
Dean Andrew instructed Curry to gather all
information regarding prior complaints, and, while in
the process of doing this, Curry was contacted by
Cancienne, who advised that Plaintiff was no longer
authorized to be on any Iberville Parish school
campus.37 After gathering additional evidence, Curry
and Dean Andrew sought help from Human Resources
regarding Plaintiff.38 Human Resources Management
administrator Reinoso interviewed witnesses and
reported his findings to Dean Andrew, who then
recommended to Provost Bell the appointment of a
Policy Statement–104 (“PS–104”) Faculty Senate
Grievance Committee (“the faculty committee”).39

36

Id. at p. 7; Deposition of Curry, p. 81, lines 9–14.

37

Id. at p. 8; Deposition of Curry, p. 100.

38

Id. at p. 9; Deposition of Curry, p. 148.

39

The LSU faculty handbook provides that: “A faculty member
(instructor or higher) who feels he or she has a grievance may
appeal for a review by appropriate administrators and/or a review
by the Faculty Senate Grievance Committee. A grievance is a
complaint and/or claim that there has been unfair or unequal
treatment by reason of an act or condition that is contrary to
established University policy and procedure governing the
employer-employee relationship or that there has been a violation,
misinterpretation, or inequitable application of University
employment policy.”

26a

*802 The PS–104 committee conducted a 12 hour
hearing during which several witnesses testified about
Plaintiff’s classroom behavior, including Plaintiff’s
friend Karen Donnelly (“Donnelly”) who is an adjunct
instructor in the PK–3 program. Donnelly testified
that she had reported her concerns to Dr. Cheek about
Plaintiff’s behavior in the Zachary Community School
System because Plaintiff’s behavior was “threatening
our program, and Zachary is our best placement.”40
Donnelly also confirmed that she observed Plaintiff
use profanity in the classroom41 and heard the
remarks about which students had complained.
Donnelly also testified that she knew of complaints
from four elementary schools that would no longer
allow Plaintiff to mentor student teachers; Donnelly
testified to knowledge of complaints about Plaintiff’s
behavior from Zachary schools,42 the LSU Lab School,43
Port Allen Elementary School,44 and Iberville Parish
Schools.45
Donnelly confirmed that Reinoso accurately reported

40

Rec. Doc. No. 34–2, p. 9, Deposition of Karen Donnelly, p. 74,
lines 4–7.
41

Id., Deposition of Donnelly, p. 64.

42

Id., Deposition of Donnelly, p. 13.

43

Id., Deposition of Donnelly, p. 14.

44

Id., Deposition of Donnelly, p. 70–71.

45

Id., Deposition of Donnelly, p. 71.

27a

that Plaintiff typically makes comments about sex
because “that is how she is.”46 When asked what was
meant by the comment that Plaintiff had “no selfawareness of what she says,”47 Donnelly responded:
“I’m not sure that was my exact word, but it’s like
when I said she doesn’t have a filter. She just doesn’t
realize what sometimes she says, and how it sounds.
She doesn’t mean it the way, you know, it sounds,
sometimes.”48 Donnelly also confirmed that she was
present when Plaintiff spoke to students about
condoms to avoid pregnancy49 and when Plaintiff
advised a student in an assessment meeting about the
quality of sex in a relationship.50 Donnelly testified
that she did not believe Plaintiff’s behavior was worse
than it had always been but that “girls are more vocal
nowadays.”51
On December 20, 2013, Plaintiff was informed by Dean
Andrew that she was being removed from the
classroom for the Spring 2014 semester while multiple
issues were investigated by the Human Resources

46

Id., Deposition of Donnelly, p. 63, lines 5–8.

47

Id., Deposition of Donnelly, p. 75, lines 22–23.

48

Id., Deposition of Donnelly, p. 75, lines 24–25 through p. 76,
lines 1–3.
49

Id., Deposition of Donnelly, p. 79.

50

Id., Deposition of Donnelly, pp. 41–42.

51

Id., Deposition of Donnelly, p. 80, lines 20–22.

28a

Department.52 On January 15, 2014, Plaintiff met with
LSU Human Resource Management administrators,
including Reinoso, to discuss the allegations of
complaints by students and school administrators.53
During the investigation, Plaintiff admitted to using
profanity and language of a sexual nature which she
claimed supported her “overall pedagogical strategy
when teaching at LSU.”54 Plaintiff *803 agreed that,
while not a direct quote, she used such language to
“get the attention of students” and “loosen them up.”55
On May 26, 2014, Plaintiff received a memorandum
from Reinoso finding her “actions and behavior” to be
“inappropriate, unwelcome, and a direct violation of
the University’s Policy Statements on Sexual
Harassment, PS–73 and PS–95.”56 Reinoso further
stated: “Beyond your sexually oriented comments, your
reported communication style with students, faculty,
and outside administrators has been found to be
inappropriate, as you often use profanity in your

52

Rec. Doc. No. 31–1, pp. 11–12; Deposition of Teresa Buchanan,
pp. 200–201; see also Rec. Doc. No. 31–1, p. 15 (Exhibit 7 to
Deposition of Buchanan).
53

Rec. Doc. No. 1, ¶¶ 19–20.

54

Id., Deposition of Buchanan, p. 212.

55

Id., Deposition of Buchanan, p. 212, lines 10–13. Plaintiff stated
that this was not a direct quote but was “correct in content and
meaning.” Id. at lines 21–22.
56

Id. ¶ 20.

29a

communication.”57 This memorandum led to a June 12,
2014 meeting between Plaintiff and Dean Andrew.
Reinoso testified that his role was to determine if
Plaintiff’s behavior violated policy, but he could not
recommend Plaintiff’s termination because he lacked
the power to do so.58
Plaintiff challenges Reinoso’s findings, arguing that
his report failed to differentiate general allegations
against her versus those that constituted harassment.
Plaintiff further contends Reinoso’s deposition
testimony clarified that several allegations against
Plaintiff did not support a finding that Plaintiff
violated LSU’s sexual harassment policy. Plaintiff
claims that Reinoso’s deposition testimony confirms
that only the following allegations supported his
finding that she violated the sexual harassment policy:
(1) Plaintiff’s remark to a student about birth control
and condoms; (2) Plaintiff’s remark to a student that
her fiancé was only supportive now because “the sex is
good”; (3) the use of profanity in certain contexts; and
(4) the allegation that Plaintiff referenced her own sex
life in class after she went through a divorce. Plaintiff
contends these allegations do not meet the standard of
severe, pervasive, or objectively offensive such that she
should have been terminated.
Plaintiff claims she was not provided with Reinoso’s

57

Id.

58

Rec.Doc. No. 30–1, p. 4, citing Deposition of Gaston Reinoso, pp.
2–5.

30a

report, which was endorsed by Monaco and then
discussed amongst Reinoso, Monaco, and Dean
Andrew, but was only given a shorter, condensed
memorandum of findings that did not detail specific
allegations against her or identify witnesses.59 As a
result of Reinoso’s report, Dean Andrew chose to
pursue disciplinary proceedings against Plaintiff and
requested that Plaintiff meet with him on June 12,
2014 to discuss the report.60 During this meeting,
Plaintiff claims Dean Andrew provided her a one-page
list of the policies she was accused of violating and
asked that she respond.61 Dean Andrew later wrote
that Plaintiff “admitted to using profanity and
language of a sexual nature, claiming it supported
[her] overall pedagogical strategy when teaching at
LSU,” and that Plaintiff stated something to the effect
that such language was used to “get the attention of
students” and “loosen them up.”62
In reaction to Plaintiff’s response, on June 17, 2014,
Dean Andrew advised Plaintiff, in writing, as follows:
I find this explanation to be
unacceptable, and I do not condone any
practices where sexual language and
profanity are *804 used when educating
59

Rec. Doc. No. 36–1, ¶¶ 97–98.

60

Id. ¶ 101.

61

Id. ¶ 102.

62

Id. ¶ 104.

31a

students, particularly those who are
being educated to serve as PK–3
professionals. As a PK–3 faculty member,
you are expected to set a good example
for your students in the profession, and
receiving bans from multiple school
districts as a result of your inappropriate
behavior does little to support legitimacy
in the classroom.63
Andrew’s correspondence further advised Plaintiff that
he was considering pursuing dismissal “for cause”
proceedings under LSU policy PS–104.64
Plaintiff contends she responded to Dean Andrew on
July 1, 2014, advising that she had to contend with
“vague and indefinite charges,” and that, “[b]efore
listening to the context or intention underlying my
actions,” Dean Andrew at the Human Resources
Management team had drawn unfair conclusions that
denied her “due process” and resulted in her loss of a
promotion.65 Plaintiff also questioned the reliability of
the report findings which she claims “centered on the
complaints of a few disgruntled students and answers
to leading questions of others, entirely discounting my
explanation of the events.”66
63

Rec. Doc. No. 31–1, p. 17 (Exhibit 8 to Deposition of Buchanan).

64

Id.

65

Rec. Doc. No. 36–1, ¶ 107.

66

Id.

32a

Despite her response, Plaintiff claims she was
informed of Dean Andrews’ July 14, 2014
recommendation to Provost Stuart Bell that she be
dismissed for cause from LSU ten days later on July
24, 2014.67 On July 30, 2014, Provost Bell requested a
PS–104 proceeding.68
Plaintiff alleges she wrote to Provost Bell on August 3,
2014 to reiterate due process concerns and to explain
how the complained-of speech was part of her
pedagogical strategy:
“[Profanity] is part of the common
vernacular even among very young
children today, and teacher-education
students need to be aware that they will
be confronted with that language and
professionally decide how they will
respond. I have never had a student tell
me that it was offensive or that they were
uncomfortable with my language.”69
Plaintiff further claims that she:
informed Bell that she utilizes humor to
help student teachers recognize their

67

Rec. Doc. No. 1, ¶ 33.

68

See Rec. Doc. No. 31–4, p. 9.

69

Rec. Doc. No. 1, ¶ 34.

33a

“own feelings regarding dress and
sexuality” to prepare them for their
future interactions with “children from
family backgrounds that are different
from their own” and their responsibility
“for establishing and maintaining
effective and reciprocal relationships
with all families.”70
Subsequently, Provost Bell impaneled a faculty
committee to conduct an evidentiary hearing to
determine whether Plaintiff had violated LSU’s
policies and/or federal law. Plaintiff acknowledges she
was notified of her right, and did in fact exercise her
right, to object to any individuals nominated to serve
on this committee.71 Plaintiff also had notice of two
pre-hearing meetings and participated in these
meetings with the aid of her legal counsel.72 On March
9, 2015, the committee conducted a twelve-hour
hearing during which the committee heard testimony
regarding Plaintiff’s conduct as described above
herein. Plaintiff was given an opportunity to address
*805 the committee and was allowed to submit
exhibits and call witnesses; indeed, all of the witnesses
on Plaintiff’s witness list testified before the committee
except for one released by Plaintiff.73
70

Id. ¶ 35.

71

Rec. Doc. No. 31–1, pp. 4–5; Deposition of Buchanan, pp. 80–81.

72

Id.

73

Id., Deposition of Buchanan, pp. 195–196.

34a

Procedural Due Process
Plaintiff contends committee members were not
provided with materials or training on how to conduct
the hearing or how to interpret the sexual harassment
standards set forth in PS–73 and PS–95.74 Plaintiff
notes that the committee chair, William Stickle,
testified that he understood the sexual harassment
standard to be one of “offensiveness” and that sexual
harassment is “in the eye of the beholder.”75 Further,
Plaintiff alleges that neither Cancienne nor any of the
students who allegedly lodged complaints against
Plaintiff testified at the hearing.76 Rather, Curry and
Dean Andrew presented “second and third-hand
information they had gathered.”77 Plaintiff also claims
she did not receive a copy of the Human Resources
Management report until just prior to the hearing.78
The Faculty Committee Findings &
Recommendation

74

Rec. Doc. No. 36–1, ¶¶ 124–125, citing Rec. Doc. No. 35–6, pp.
43–44, Deposition of William Stickle, pp. 48–52.
75

Rec. Doc. No. 35–6, pp. 47–48, Deposition of William Stickle, pp.
137–138.
76

Rec. Doc. No. 36–1, ¶¶ 121, 129.

77

Rec. Doc. No. 35–1, p. 17, citing Rec. Doc. No. 36–1, ¶ 130.

78

Rec. Doc. No. 36–1, ¶ 123.

35a

On March 20, 2015, although the committee found
insufficient findings to establish an ADA violation,79
the written findings of the faculty committee
concluded that Plaintiff’s conduct violated PS–73 and
PS–95 “through her use of profanity, poorly worded
jokes, and sometimes sexually explicit ‘jokes’.”80 The
committee further found that Plaintiff’s conduct
created a “hostile learning environment.”81 Despite
these findings, the committee did not recommend
dismissal but instead recommended a censure and
agreement from Plaintiff that she would modify her
teaching methodology to correct the offensive
behavior.82 Further, the committee criticized Plaintiff’s
supervisors for failing to offer her “counseling before
HRM engagement” or “re-training prior to
implementing PS–104 proceedings.”83 The committee
also denounced the “closed nature of the HRM
investigation” that “did not offer Dr. Buchanan an
opportunity to resolve charges once specifics of charges
became known.”84
Notwithstanding the committee’s recommendation, on

79

See Rec. Doc. No. 65–3, p. 26.

80

Rec. Doc. No. 31–2, p. 14,

81

Id.

82

See Rec. Doc. No. 1, ¶ 38; Rec. Doc. No. 14, ¶ 38.

83

Rec. Doc. No. 36–2, p. 75.

84

Id.

36a

April 2, 2015, President/Chancellor Alexander notified
Plaintiff he intended to recommend her dismissal for
cause and for violations of LSU’s policies and violation
of the ADA.85 Plaintiff claims Alexander was obligated
under PS–104 to “make such a recommendation based
on the recommendation of the Committee of the
Faculty and the evidence presented in the hearing.”86
However, the same document also states: “The
Chancellor also *806 has the option to return the case
to the Committee of the Faculty for further review or
to take an alternate action.”87 Nevertheless, Plaintiff
contends Alexander testified that he never reviewed
the hearing transcript, did not see any exhibits or
evidence presented, and did not know which witnesses
testified.88 Alexander testified that he did read the
report of the faculty committee and that he “listened to
my staff and the recommendations they made. And
those that were involved throughout the hearing as
well.”89 Alexander further testified that his decision
was based on his discussions with the Provost and
legal staff.90 Plaintiff also contends that, despite the

85

Rec. Doc. No. 31–2, p. 11.

86

Rec. Doc. No. 35–6, p. 56.

87

Id. (emphasis added).

88

Rec. Doc. No. 36–1, ¶ 140, citing Rec. Doc. No. 35–5, Deposition
of Alexander, pp. 51–56.
89

Rec. Doc. No. 35–5, Deposition of Alexander, pp. 54, lines 8–11.

90

Id., Deposition of Alexander, p. 55.

37a

fact that Reinoso’s report confirmed that Cancienne’s
complaint had nothing to do with sexual harassment,
Alexander testified that his recommendation was
largely based on Cancienne’s complaint,91 and he
“mistakenly believed the case was about more than
just profanity, poorly worded jokes, or occasionally
sexually explicit jokes.”92
Plaintiff appealed Alexander’s initial recommendation
and requested an opportunity to address the Board.93
Plaintiff was allowed to address the Board;94 however,
Alexander’s recommendation remained unchanged.95
Prior to the Board meeting, Plaintiff communicated
with Board members via email and attached her
supporting documentation.96
Plaintiff has acknowledged that LSU Policy PS–73

91

See id., Deposition of Alexander, pp. 152–157

92

Rec. Doc. No. 35–1, p. 18, citing Rec. Doc. No. 36–1, ¶ 143.
Alexander was asked if this case had only been about profanity,
poorly worded jokes, or occasionally sexually explicit jokes, would
it have progressed to this level, and he responded: “This probably
would not have progressed to this level.” Id. at p. 163, lines 15–16.
However, Alexander’s testimony makes clear that he did not
believe the case to be only about those issues.
93

Rec.Doc. No. 31–1, p. 6, Deposition of Buchanan, p. 176.

94

Id.

95

Rec. Doc. No. 31–2, p. 18.

96

Rec.Doc. No. 31–1, p. 3, Deposition of Buchanan, p. 30.

38a

defines sexual harassment as:
speech and/or conduct of a sexually
discriminatory nature, which was neither
welcomed nor encouraged, which would
be so offensive to a reasonable person as
to create an abusive working or learning
environment and/or impair his/her
performance on the job or in the
classroom.97
Plaintiff further acknowledged that LSU’s policy on
sexual harassment of students, PS–95 defines sexual
harassment as follows:
unwelcome verbal, visual, or physical
behavior of a sexual nature.” It includes
quid pro quo harassment and hostile
environment harassment, which “has the
purpose or effect of unreasonably
interfering with an individual’s
academic, work, team or organization
performance or creating an intimidating,
hostile or offensive working
environment.98
*807 Plaintiff also acknowledged that PS–95 describes
examples of hostile work environment, including
“unwelcome touching or suggestive comments,

97

Rec. Doc. No. 1, ¶ 24, quoting Rec. Doc. No. 1–2, p. 2.

98

Id. ¶ 24, quoting Rec. Doc. No. 1–2, p. 6.

39a

offensive language or display of sexually oriented
materials, obscene gestures, and similar sexually
oriented behavior of an intimidating or demeaning
nature.”99 However, LSU’s policies are much more
specific than what Plaintiff has acknowledged. Indeed,
LSU expressly acknowledges that the policies are “not
intended to infringe upon constitutionally guaranteed
rights nor upon academic freedom.”100 The policies also
include definitions that expound upon what conduct is
deemed violative.101
Nevertheless, from Plaintiff’s selective reference to the
policies, she argues that LSU had begun interpreting
these policies to mirror what the U.S. Departments of
Education and Justice have called “a blueprint for
colleges and universities” which defines sexual
harassment broadly; however, neither LSU policy nor
the “blueprint” implements the standards of Title VII
which require actionable sexual harassment to be
severe, pervasive, and objectively offensive. Plaintiff
also claims that the Board was not provided with the
hearing transcript and exhibits but was instead only
given a few items selected by Monaco, including a legal
memorandum addressing the constitutionality of
LSU’s anti-sexual harassment policy.102

99

Id. at ¶ 25.

100

Rec. Doc. No. 1–2, p. 2.

101

Id. at p. 3.

102

Rec. Doc. No. 36–1, ¶¶ 151, 153.

40a

On June 19, 2015, Plaintiff was dismissed by the
Board. Plaintiff contends that, in response to her
termination, the LSU Faculty Senate adopted a
resolution to censure Alexander, Dean Andrew, and
Provost Bell, which stated: “great universities have in
place three significant measures to ensure the
continued observance of academic freedom: Tenure;
faculty governance; and due process;” and “all three
measures have been violated in the case of Associate
Professor Teresa Buchanan.”103
Plaintiff filed this lawsuit asserting claims pursuant to
42 U.S.C. § 1983 for an alleged violation of her right to
free speech and academic freedom under the First and
Fourteenth Amendments to the United States
Constitution. She also alleges a violation of procedural
and substantive due process under the Fourteenth
Amendment, a facial challenge to the sexual
harassment policies implemented by LSU, and she
seeks reinstatement, declaratory, and injunctive relief.
The parties have filed cross-motions for summary
judgment, which are now before the Court.
II. LAW AND ANALYSIS
A. Summary Judgment Standard
“The court shall grant summary judgment if the

103

Rec. Doc. No. 36–5, p. 145, Faculty Senate Resolution 15–15.
The Court notes that this document appears to be Minutes of the
Faculty Senate meeting, and the Court cannot determine if this
Resolution was proposed or passed.

41a

movant shows that there is no genuine dispute as to
any material fact and the movant is entitled to
judgment as a matter of law.”104 “When assessing
whether a dispute to any material fact exists, we
consider all of the evidence in the record but refrain
from making credibility determinations or weighing
the evidence.”105 A party moving for summary
judgment “must ‘demonstrate the absence of a genuine
issue of material fact,’ but need not negate the
elements of the nonmovant’s *808 case.”106 If the
moving party satisfies its burden, “the non-moving
party must show that summary judgment is
inappropriate by setting ‘forth specific facts showing
the existence of a genuine issue concerning every
essential component of its case.’ ”107 However, the nonmoving party’s burden “is not satisfied with some
metaphysical doubt as to the material facts, by
conclusory allegations, by unsubstantiated assertions,

104

Fed. R. Civ. P. 56(a).

105

Delta & Pine Land Co. v. Nationwide Agribusiness Ins. Co., 530
F.3d 395, 398–99 (5th Cir. 2008).

106

Guerin v. Pointe Coupee Parish Nursing Home, 246 F.Supp.2d
488, 494 (M.D. La. 2003)(quoting Little v. Liquid Air Corp., 37
F.3d 1069, 1075 (5th Cir. 1994)(en banc)(quoting Celotex Corp. v.
Catrett, 477 U.S. 317, 323–25, 106 S.Ct. 2548, 2552, 91 L.Ed.2d
265 (1986))).

107

Rivera v. Houston Independent School Dist., 349 F.3d 244, 247
(5th Cir. 2003)(quoting Morris v. Covan World Wide Moving, Inc.,
144 F.3d 377, 380 (5th Cir. 1998)).

42a

or by only a scintilla of evidence.”108
Notably, “[a] genuine issue of material fact exists, ‘if
the evidence is such that a reasonable jury could
return a verdict for the nonmoving party.’ ”109 All
reasonable factual inferences are drawn in favor of the
nonmoving party.110 However, “[t]he Court has no duty
to search the record for material fact issues. Rather,
the party opposing the summary judgment is required
to identify specific evidence in the record and to
articulate precisely how this evidence supports his
claim.”111 “Conclusory allegations unsupported by
specific facts ... will not prevent the award of summary
judgment; ‘the plaintiff [can]not rest on his allegations
... to get to a jury without any “significant probative
evidence tending to support the complaint.” ’ ”112
B. Eleventh Amendment Sovereign

108

Willis v. Roche Biomedical Laboratories, Inc., 61 F.3d 313, 315
(5th Cir. 1995)(quoting Little v. Liquid Air Corp., 37 F.3d 1069,
1075 (5th Cir. 1994).

109

Pylant v. Hartford Life and Accident Insurance Company, 497
F.3d 536, 538 (5th Cir. 2007)(quoting Anderson v. Liberty Lobby,
Inc., 477 U.S. 242, 248, 106 S.Ct. 2505, 91 L.Ed.2d 202 (1986)).

110

See Galindo v. Precision American Corp., 754 F.2d 1212, 1216
(5th Cir. 1985).

111

RSR Corp. v. Int’l Ins. Co., 612 F.3d 851, 857 (5th Cir. 2010).

112

Nat’l Ass’n of Gov’t Employees v. City Pub. Serv. Bd. of San
Antonio, Tex., 40 F.3d 698, 713 (5th Cir. 1994)(quoting Anderson,
477 U.S. at 249, 106 S.Ct. 2505).

43a

Immunity
Defendants contend that the Eleventh Amendment
sovereign immunity bars suits against them in their
official capacities because “a suit against a state
official in his or her official capacity is not a suit
against the official but rather a suit against the
official’s office.”113 Defendants further contend that
state officials are not “persons” subject to liability and
money damages under 42 U.S.C. § 1983. Plaintiff does
not dispute Defendants’ assertion but claims that
Defendants have been sued in both their individual
and official capacities. Thus, Plaintiff can recover
money damages from Defendants in their individual
capacities. Plaintiff further claims that she seeks only
prospective, injunctive relief from the Defendants in
their official capacities which does not violate the
Eleventh Amendment.
[1] [2] [3] [4] [5]“The Eleventh Amendment to the
United States Constitution bars suits in federal court
by citizens of a state against their own state or a state
agency or department.”114 The State of Louisiana *809
has not waived its sovereign immunity,115 and the
Board of Supervisors, although not named as a
Defendant herein, is an arm of the state and is
113

Will v. Michigan Dep’t of State Police, 491 U.S. 58, 71, 109 S.Ct.
2304, 105 L.Ed.2d 45 (1989).

114

Voisin’s Oyster House, Inc. v. Guidry, 799 F.2d 183, 185 (5th
Cir.1986).

115

See La. Const. art. XII, § 10; La.Rev.Stat. Ann. § 13:5106.

44a

likewise entitled to Eleventh Amendment immunity.116
However, the Plaintiff is not barred by the Eleventh
Amendment from bringing suit, as she has, for
prospective, injunctive relief against individual state
officials named as defendants in their official
capacities.117 Further, it is “well established” in the
Fifth Circuit that “a suit against a state officer in his
or her individual capacity for money damages is not a
suit against the state for purposes of Eleventh
Amendment immunity.”118
C. Prescription

116

Delahoussaye v. City of New Iberia, 937 F.2d 144, 148 (5th Cir.
1991).

117

See Ex parte Young, 209 U.S. 123, 28 S.Ct. 441, 52 L.Ed. 714
(1908).

118

New Orleans Towing Ass’n v. Foster, 248 F.3d 1143, 2001 WL
185033 *3 (5th Cir. 2001)(citing Wilson v. UT Health Ctr., 973
F.2d 1263, 1271 (5th Cir.1992))(“Pennhurst [State School & Hosp.
v. Halderman, 465 U.S. 89, 104 S.Ct. 900, 79 L.Ed.2d 67 (1984) ]
and the Eleventh Amendment do not deprive federal courts of
jurisdiction over state law claims against state officials strictly in
their individual capacities.”), cert. denied, 507 U.S. 1004, 113 S.Ct.
1644, 123 L.Ed.2d 266 (1993); Hays County Guardian v. Supple,
969 F.2d 111, 125 (5th Cir.1992) (“The Eleventh Amendment does
not bar state-law actions against state officials in their individual
capacity.”), cert. denied, 506 U.S. 1087, 113 S.Ct. 1067, 122
L.Ed.2d 371 (1993); Crane v. Texas, 759 F.2d 412, 428 n. 17 (5th
Cir.) (“The Eleventh Amendment is obviously no bar to actions for
damages against officials sued in their individual capacities[.]”),
cert. denied, 474 U.S. 1020, 106 S.Ct. 570, 88 L.Ed.2d 555 (1985);
see also Hafer v. Melo, 502 U.S. 21, 30–31, 112 S.Ct. 358, 116
L.Ed.2d 301 (1991)).

45a

[6] [7] [8]Defendants Andrew, Reinoso and Monaco
contend all claims against them are subject to
dismissal because they are time-barred. The Supreme
Court has held that the appropriate statute of
limitations to be applied in all Section 1983 actions is
the forum state’s statute of limitations governing
personal injury actions.119 However, the date that a
Section 1983 claim accrues is governed by federal law,
not state law. Under federal law, the limitations period
begins to run when the plaintiff “becomes aware that
[she] has suffered an injury or has sufficient
information to know that [she] has been injured.”120
Louisiana law provides a one-year liberative
prescriptive period for personal injury claims.121
Accordingly, Plaintiff was required to have filed suit
within one year of the date that she became aware
that she has suffered injury or had sufficient
information to know that she has been injured.
Defendants rely on the decision in van Heerden v.

Board of Supervisors of Louisiana State University
and Agricultural and Mechanical College wherein the

119

See Wilson v. Garcia, 471 U.S. 261, 276–80, 105 S.Ct. 1938, 85
L.Ed.2d 254 (1985) (superseded by statute on other grounds); see
also Hitt v. Connell, 301 F.3d 240, 246 (5th Cir. 2002) (applying
state personal injury statute of limitations to First Amendment
retaliation claim).
120

Helton v. Clements, 832 F.2d 332, 335 (5th Cir.1987).

121

See Bourdais v. New Orleans City, 485 F.3d 294, 298 (5th Cir.
2007)(internal citation omitted)(citing La. Civ.Code art. 3492).

46a

court held that a plaintiff could not use the continuing
violation theory for alleged acts of First Amendment
retaliation.122 The court held:
As the Fifth Circuit has noted, though,
“courts, including this one, are wary to
use the continuing violation doctrine to
*810 save claims outside the area of Title
VII discrimination cases.” McGregor v.
Louisiana State Univ. Bd. of Sup’rs, 3
F.3d 850, 866 n.27 (5th Cir.1993). The
Supreme Court has held that discrete
discriminatory acts constitute separate,
actionable instances of unlawful
discrimination such that the continuing
violation theory is inapplicable. Nat’l
R.R. Passenger Corp. v. Morgan, 536 U.S.
101 [122 S.Ct. 2061, 153 L.Ed.2d 106]
(2002). Further, as the Court held in
Rutan v. Republican Party of Illinois, 497
U.S. 62 [110 S.Ct. 2729, 111 L.Ed.2d 52]
(1990), the First Amendment provides
state employees with an actionable First
Amendment retaliation case for “even an
act of retaliation as trivial as failing to
hold a birthday party for a public
employee ... when intended to punish her
for exercising her free speech rights.” 497
U.S. at 76, n.8 [110 S.Ct. 2729] (internal
quotations and citations omitted).
122

No. 03:10-CV-155-JJB-CN, 2011 WL 5008410, *1 (M.D. La. Oct.
20, 2011).

47a

Because Rutan recognizes that instances
of retaliation for exercising First
Amendment rights are almost always
actionable, they almost always constitute
discrete acts which do not admit of
aggregation for purposes of pressing a
continuing violation argument. See, e.g.,
O’Connor v. City of Newark, 440 F.3d 125
(3d Cir.2006) (disallowing aggregation of
discrete retaliatory acts for purposes of
statute of limitations when actions
related to § 1983 First Amendment
retaliation claim). Van Heerden has cited
no provision of law to the contrary. Van
Heerden cannot combine separate,
discrete instances of First Amendment
retaliation into a continuing violation for
purposes of his § 1983 claims.123
Defendant Andrew notes that Plaintiff makes no
allegations against him beyond July 14, 2014, the date
she alleges that Dean Andrew recommended her
dismissal for cause to Provost Bell.124 Because this
action was taken 18 months prior to Plaintiff’s filing of
this suit on January 20, 2016, Dean Andrew contends
all First Amendment claims against him have
prescribed. Defendants Reinoso and Monaco make the
same arguments regarding Plaintiff’s allegations
against them as no allegations are made as to Reinoso

123

Id. at *8.

124

Rec. Doc. No. 1, ¶ 33.

48a

or Monaco after May 26, 2014 when Reinoso’s
investigation findings were approved by Monaco, and
Monaco concluded that Plaintiff had violated LSU’s
sexual harassment policies.125
[9]The Court agrees that the First Amendment claims
brought against Dean Andrew, Reinoso, and Monaco
are prescribed.126 There is no allegation that Monoco,
Reinoso, or Dean Andrew actually terminated
Plaintiff. Further, Plaintiff’s attempt to distinguish
van Herdeen is without merit and without any
jurisprudential support. The law is clear that she
cannot aggregate discrete acts for First Amendment
retaliation. Plaintiff’s argument that “Defendants’
various actions are part of a single course of conduct
that applied an unconstitutional sexual harassment
standard and culminated in”127 her termination is a
clear attempt to apply the continuing violation theory
to her First Amendment retaliation claim. Such an
argument is foreclosed under applicable
jurisprudence.128 The First Amendment claims *811
125

Id., ¶ 28; Rec. Doc. No. 30.

126

Alternatively, the Court finds that Defendants Andrew,
Reinoso, and Monaco would be entitled to qualified immunity for
the reasons set forth hereafter.

127

Rec. Doc. No. 35–1, p. 36 (Brief, p. 29).

See Hamic v. Harris Cnty., W.C. & I.D. No. 36, 184 Fed.Appx.
442, 447 (5th Cir. 2006) (holding that the continuing violations
doctrine does not apply to claims of retaliation because
“retaliation is, by definition, a discrete act, not a pattern of
behavior”); see also Nat’l R.R. Passenger Corp. v. Morgan, 536
128

49a

against Dean Andrew, Reinoso, and Monaco are
dismissed with prejudice.
D. Final Decision–Makers
Defendants also move for summary judgment on the
grounds that they were not the final decision-makers
who terminated Plaintiff’s employment. Defendants
note that only the Board is authorized to terminate
employees, and Defendants maintain that, since none
of them actually terminated Plaintiff, her claims
against the Defendants individually must be
dismissed. In support of this argument, Defendants
rely on the Fifth Circuit’s decision in Culbertson v.
Lykos, where the court held that, at the time, “[i]t was
unsettled...whether someone who is not a final
decision-maker and makes a recommendation that
leads to the plaintiff being harmed can be liable for
retaliation under Section 1983.”129 On the other hand,
Plaintiff points out that the Culbertson court also
stated, referring to a prior similar case: “We did not
necessarily hold that there was no individual liability

U.S. 101, 113, 122 S.Ct. 2061, 153 L.Ed.2d 106 (2002)(“Discrete
discriminatory acts are not actionable if time barred,” even when
they are related to acts that are the subject of timely
complaints.”); Vandenweghe v. Jefferson Parish, No. 11-2128,
2012 WL 1825300, *6 (E.D. La. May 18, 2012)(court held in case
where First Amendment retaliation claims were asserted, “to the
extent [plaintiff] seeks redress for injuries known to have been
sustained prior to August 25, 2012, the Court finds that these
claims are facially time-barred.”).
129

790 F.3d 608, 626 (5th Cir. 2015).

50a

simply because the board made the decision.”130
Ultimately, if the recommendations by the Defendants
constitute the reason that the Board terminated
Plaintiff, then individual liability could attach.131
The decision in Powers v. Northside Independent
School District132 is applicable on this issue. In Powers,
a terminated school principal and assistant principal
sued the school district for alleged Section 1983 free
speech violations under federal and Texas
constitutions. Specifically, these plaintiffs alleged that
Superintendent Woods “‘used his influence as
superintendent’ to effect their terminations.”133 After
a series of events which included complaints being
filed against the plaintiffs relating to their
administration of testing, plaintiffs’ suspensions for
suspected misconduct, and plaintiffs’ filing of
grievances to contest their suspensions and allege
retaliation, Woods recommended to the Board of
Trustees that the plaintiffs be terminated.134 The
Board of Trustees followed this recommendation and

Id., citing Beattie v. Madison County School Dist., 254 F.3d
595, 604–605 (5th Cir. 2001).

130

131

See Powers v. Northside Independent School Dist., 143

F.Supp.3d 545, 550–51 (W.D. Tex. 2015).
132

Id.

133

Id. at 546.

134

Id. at 547.

51a

terminated the plaintiffs’ employment.135 The plaintiffs
alleged in their complaint that Woods “used his
authority ... as superintendent to create a bogus case
for termination against Plaintiffs and, in conjunction
with his influence over the Board of Trustees, effected
the termination of Plaintiffs’ employment by Board
action.”136
Woods challenged the sufficiency of these allegations
and argued that such allegations were not actionable
because they did not constitute “adverse employment
actions” under Section 1983.137 Essentially, *812
Woods argued that the plaintiffs “failed to allege that
[he] caused their termination.”138 In reaching its
determination on this issue, the court then reviewed
Fifth Circuit decisions in two cases relied upon by the
Parties in the present case.
Defendants cite Beattie v. Madison
County School District, 254 F.3d 595 (5th
Cir.2001) (en banc). In Beattie, the Fifth
Circuit considered the individual liability
of Acton, a school principal, and Jones, a
school superintendent, who allegedly
retaliated against Beattie for exercising
her right to free speech by recommending
135

Id.

136

Id. at 550.

137

Id.

138

Id. at 549.

52a

her termination to the school board. 254
F.3d at 604–05. In its discussion
affirming summary judgment in favor of
Acton and Jones, the Beattie court stated
Acton and Jones “did not fire Beattie
directly, but merely recommended her
termination to the board, which made the
final decision. If Acton and Jones did not
cause the adverse employment action,
they cannot be liable under § 1983, no
matter how unconstitutional their
motives.” Id. at 605. Here, because only
the Board of Trustees had the power to
terminate Plaintiffs under Texas law,
Defendants claim Beattie controls, and
therefore that Plaintiffs have failed to
state a § 1983 claim against Woods. See
Mot. Dismiss [# 23] at 10.
The Fifth Circuit, however, recently cast
doubt upon Defendants’ interpretation of
Beattie in Culbertson v. Lykos, 790 F.3d
608 (5th Cir.2015). In Culbertson, two
contractors whose company provided
breath-alcohol testing services for Harris
County brought a § 1983 claim against
the Harris County assistant district
attorney (ADA) in her individual
capacity, alleging First Amendment
retaliatory termination. Id. at 614, 625.
The contractors alleged after they spoke
out regarding the unreliability of certain
breath-alcohol testing equipment, the
53a

ADA pressured the Harris County
Commissioners Court, the relevant
decision-making body, to terminate their
contract with Harris County. See id. at
621. Considering whether the contractors
stated a claim against the ADA in her
individual capacity, the Culbertson court
discussed Beattie in detail, noting that
“some later decisions ... have interpreted
Beattie to hold that only final decisionmakers may be held liable for First
Amendment retaliation under § 1983.”
Id. at 626 (internal quotation omitted).
The Culbertson court reviewed the facts
of Beattie, noting in particular that the
board “fired Beattie for permissible,
constitutional motives independently of
Acton’s and Jones’s recommendation”
and that those permissible motives were
a “superseding cause” which “shield[ed]
[Acton and Jones] from liability.” Id. at
625 (quoting Beattie). In short, Acton and
Jones’s unproven retaliatory motives
were “displaced by other motives.” Id.
...
The Culbertson court then pointed to Jett
v. Dallas Independent School District,

798 F.2d 748, 758 (5th Cir.1986), a preBeattie decision which required only that
a plaintiff show “an affirmative causal
link” between the individual actor’s
54a

conduct and the adverse employment
action taken by the decision maker for
individual liability to attach. Culbertson,
790 F.3d at 626 (quoting Jett, 798 F.2d at
758). The Jett court explicitly rejected
the individual defendant’s “contention
that the judgment as to him must be
reversed because ... he had only
recommending authority.” Jett, 798 F.2d
at 758. Acknowledging the “tension”
between Jett and the later decisions
interpreting Beattie to hold that *813
only final decision makers may be held
liable for First Amendment retaliation
under § 1983, the Culbertson court
concluded:
It can at least be said that before
[the ADA] could be individually
liable despite not being the final
decision-maker, it must be shown
that her recommendation was
made in retaliation for
constitutionally protected speech
and was the reason the adverse
employment decision was made by
the final decision-maker. A
“superseding cause” would shield
[the ADA] from liability.

Culbertson, 790 F.3d at 626.
Following Culbertson, the Court finds as
55a

Plaintiffs have alleged Woods “effected
the termination of [their] employment by
Board action,” they have adequately
stated a § 1983 claim for First
Amendment retaliation against Woods.139
While the Powers court agreed that the plaintiffs had
adequately pled a First Amendment retaliation claim
against Woods, the court next addressed the asserted
defense of qualified immunity and held as follows:
Defendants argue Plaintiffs’ § 1983 claim
against Woods must nevertheless be
dismissed because Woods is entitled to
qualified immunity for his conduct. The
Court agrees. Qualified immunity
requires a court to “determine whether
the plaintiff has suffered a violation of
his constitutional rights and, if so,
whether a reasonable official should have
known that he was violating the
plaintiff’s constitutional rights.”
Culbertson, 790 F.3d at 627 (quoting
Murray v. Earle, 405 F.3d 278, 285 (5th
Cir. 2005)). Confronted with the question
whether the ADA was entitled to
qualified immunity despite its holding
the plaintiffs stated a claim against her,
the Culbertson court found as follows:
We have already noted ambiguity
139

Id. at 549–550.

56a

as to the liability of a person for
recommending an adverse
employment decision.... It was
unsettled at the time of [the
ADA’s] actions, and remains so
now, whether someone who is not
a final decision-maker and makes
a recommendation that leads to
the plaintiff being harmed can be
liable for retaliation under Section
1983. Cf. Beattie, 254 F.3d at 595,
604–05; Jett, 798 F.2d at 758.... In
fact, some clear statements in the
caselaw have held there can be no
liability.
We conclude the claims against
[the ADA] should be dismissed
based on qualified immunity.

Id. (additional citations omitted). In light
of the foregoing analysis and the
Culbertson court’s statement the law in
this area remains unsettled, the Court
finds Plaintiffs’ claims against Woods
should be dismissed based on qualified
immunity.140

The district court for the Southern District of Texas
recently interpreted and applied Culbertson in Sims v.

140

Id. at 551.

57a

Covington.141 The court held that the plaintiff’s claim

against a supervisor who did not make the final
decision to terminate him was foreclosed pursuant to
Culbertson:
The threshold and fundamental problem
is recent, clear Fifth Circuit precedent
that forecloses Sims’s claim. In
Culbertson v. Lykos, 790 F.3d 608 (5th
Cir. 2015), the court held that, as of 2015,
“[i]t was unsettled...whether someone
who is not a final decision-maker and
makes a recommendation that leads to
the plaintiff being harmed can be liable
for retaliation under Section 1983.” *814
Id. at 627. Because when Covington
allegedly acted, “the law was not clearly
established that a mere recommendation
of termination to a higher authority who
makes the final decision causes an
adverse employment action” for purposes
of First Amendment retaliation, qualified
immunity precludes the relief Sims
seeks. See id.
Sims cannot distinguish Culbertson. The
plaintiff, Amanda Culbertson, like Sims,
alleged that she was fired for asserting
her First Amendment rights. Id. at
614–16. Culbertson, like Sims, sought
damages under § 1983 from someone who
141

No. H-14-2145, 2016 WL 3144158, *1 (S.D. Tex. June 6, 2016).

58a

recommended that she be fired but who
did not have the authority to fire her. Id.
The Fifth Circuit held that qualified
immunity barred Culbertson’s First
Amendment claim against the
nondecisionmaker. Id. at 627. Sims
attempts to rely on language from
Culbertson analyzing the underlying
constitutional violation, id. at 625–26,
but he ignores the opinion’s qualifiedimmunity holding, id. at 627. (Docket
Entry No. 86, Ex. 1 at p. 29). Under
Culbertson, Sims’s claim must fail.142
The analysis and reasoning in Sims is applicable to the
present case.
[10]First, the Court notes that Plaintiff in the present
case has not alleged in her Complaint that either
Reinoso or Monaco caused or effected her termination.
Indeed, there is no allegation that either of them even
recommended her dismissal. Thus, any claims against
Reinoso or Monaco for unlawful termination are
dismissed as a matter of law. Plaintiff does allege that
Dean Andrew recommended her dismissal to the
Provost, and that Chancellor Alexander recommended
her dismissal to the Board following the faculty
committee hearing. Reading the Complaint in the light
most favorable to Plaintiff, the Court finds that
Plaintiff has sufficiently alleged that Andrew and
Alexander caused her termination. However, the
142

Id. at *5–6.

59a

discrete act by Andrew occurred 18 months prior to
Plaintiff filing suit and has been dismissed as
prescribed. In any event, both Andrew and Alexander
are entitled to qualified immunity for Plaintiff’s
termination as set forth in Culbertson and Powers and
for the reasons set forth below.
E. Qualified Immunity
[11] [12] [13]Defendants also move for summary
judgment on claims brought against them in their
individual capacities on the assertion of the qualified
immunity defense. Qualified immunity is addressed as
a threshold matter, and its elements require an
analysis of the substance of each constitutional claim
raised. Qualified immunity protects government
officials—from suit under 42 U.S.C. § 1983 and related
statutes, including § 1985—performing “discretionary
functions” when their actions are reasonable regarding
the rights that the official allegedly violated.143
Essentially, it is a defense available to “all but the
plainly incompetent or those who knowingly violate
the law.”144 The Fifth Circuit uses a two-part test to
evaluate qualified immunity defenses: first, whether
the defendant’s alleged action constitutes a violation of
the plaintiff’s constitutional rights, and second,
“whether the defendant’s actions were objectively
unreasonable in light of clearly established law at the

143

See Good v. Curtis, 601 F.3d 393, 400 (5th Cir. 2010).

144

Id. (internal citations omitted).

60a

time of the conduct in question.”145 The Court will
address each of Plaintiff’s alleged constitutional
violations below and determine *815 if the defense of
qualified immunity has been satisfied for any of these
constitutional claims.
1. First Amendment Speech and Academic Freedom
[14]Under Section 1983, a plaintiff must establish the
deprivation of a right secured by the Constitution or
laws of the United States committed by a person
acting under color of state law.146 Plaintiff’s Section
1983 claim in this case is grounded on the First and
Fourteenth Amendments. The First Amendment
protects a public employee’s right, in certain
circumstances, to speak as a citizen addressing
matters of public concern. A First Amendment
retaliation claim requires proof of the following
elements: (1) an adverse employment action; (2) speech
involving a matter of public concern; (3) the employee’s
interest in speaking must outweigh the employer’s
interest in promoting efficiency in the workplace, and
(4) the employee’s speech motivated the employer’s
adverse employment action.147
[15]The Supreme Court’s decision in Garcetti v.

145

Freeman v. Gore, 483 F.3d 404, 411 (5th Cir. 2007).

146

Southwestern Bell Telephone, LP v. City of Houston, 529 F.3d

257, 260 (5th Cir. 2008).
147

Charles v. Grief, 522 F.3d 508, 510, n. 2 (5th Cir. 2008).

61a

Ceballos,148 added a threshold layer to this analysis.149
In Garcetti, the Supreme Court held that, “when

public employees make statements pursuant to their
official duties, the employees are not speaking as
citizens for First Amendment purposes.”150 Thus, this
Court must initially determine whether the Plaintiff’s
speech was pursuant to her official duties. Speech that
is required by a plaintiff’s job duties or part of her
official duties is not protected by the First
Amendment.151 As succinctly stated by the Fifth
Circuit in Davis: “Activities undertaken in the course
of performing one’s job are activities pursuant to
official duties and not entitled to First Amendment
protection.”152
[16] [17]Therefore, under Garcetti, the focus is on the
role the employee occupied when she communicated
rather than the content of the speech.153 “Even if the
speech is of great social importance, it is not protected
by the First Amendment so long as it was made

148

547 U.S. 410, 126 S.Ct. 1951, 164 L.Ed.2d 689 (2006).

149

See Davis v. McKinney, 518 F.3d 304, 312 (5th Cir. 2008).

150

Garcetti, 547 U.S. at 421, 126 S.Ct. at 1960.

Id.; Williams v. Dallas Indep. Sch. Dist., 480 F.3d 689, 693–94
(5th Cir. 2007).

151

152

Davis, 518 F.3d at 313.

153

See Williams, 480 F.3d at 692.

62a

pursuant to the worker’s official duties.”154 Neither a
formal job description, speaking on the subject matter
of one’s employment, or the fact that a public
employee’s statements are made internally is
dispositive.155
[18]“Academic freedom, though not a specifically
enumerated constitutional right, long has been viewed
as a special concern of the First Amendment.”156 It
consists of “the right of an individual faculty member
to teach ... without interference from ... the university
administration, or his fellow faculty members.”157
*816 As the Fifth Circuit has noted, “[w]hile academic
freedom is well-recognized, its perimeters are illdefined and the case law defining it is inconsistent. Its
roots have been found in the first amendment insofar
as it protects against infringements on a teacher’s
freedom concerning classroom content and method.”158
“The foregoing suggests ample precedent for
considering academic freedom as within the ambit of
154

Id.

155

Id.; Garcetti, 547 U.S. at 423, 126 S.Ct. at 1961.

156

University of California Regents v. Bakke, 438 U.S. 265, 312,

98 S.Ct. 2733, 57 L.Ed.2d 750 (1978).
157

Dow Chemical Co. v. Allen, 672 F.2d 1262, 1275 (7th Cir. 1982)

(citations omitted).

Hillis v. Stephen F. Austin State University, 665 F.2d 547, 553
(5th Cir. 1982) citing Keyishian v. Board of Regents, 385 U.S. at
603, 87 S.Ct. 675, 683 (other citations omitted).
158

63a

the First Amendment, while at the same time
demonstrating the nebulousness surrounding exactly
what activities are protected by the academic freedom
guarantee implied in the First Amendment.”159
[19] [20]The inquiry into whether Plaintiff’s speech is
entitled to protection under the First Amendment as
addressing a matter of public concern is a question of
law for the court to decide.160 The inquiry into whether
Plaintiff’s interests in speaking outweigh LSU’s
interests in regulating Plaintiff’s speech is a factual
determination conducted under the well-known
Pickering balancing test.161 If Plaintiff’s interests in
the prohibited speech outweigh the College’s interests,
then Plaintiff’s First Amendment rights have been
violated.162 If the First Amendment violation was a
substantial or motivating factor in Defendants’
disciplinary action against Plaintiff, Defendants may
present evidence that they would have disciplined

159

Vance v. Board of Supervisors of Southern University, 1996 WL

580905 at *3 (E.D. La. Oct. 9, 1996).

See Rankin v. McPherson, 483 U.S. 378, 383, 386 n. 9, 107
S.Ct. 2891, 2905, 97 L.Ed.2d 315 (1987).
160

See Pickering v. Board of Ed. of Township High School Dist.
205, Will Cty., 391 U.S. 563, 568, 88 S.Ct. 1731, 20 L.Ed.2d 811

161

(1968).
162

See Dambrot v. Cent. Mich. Univ., 55 F.3d 1177, 1186 (6th

Cir.1995).

64a

Plaintiff in the absence of his protected conduct.163
However, if Plaintiff’s speech does not involve a matter
of public concern, it is unnecessary for the court to
scrutinize the reason for the discipline.164
[21] [22] [23] [24]“Whether an employee’s speech
addresses a matter of public concern must be
determined by the content, form, and context of a
given statement, as revealed by the whole record.”165
Speech which can be “fairly considered as relating to
any matter of political, social, or other concern to the
community” touches upon matters of public concern.166
Absent unusual circumstances, a public employee’s
speech dealing with “matters only of personal interest”
is not afforded constitutional protection.167 However,
mixed questions of private and public concern, where
the employee is speaking both as a citizen as well as
an employee, can be protected,168 such that “if any part
of an employee’s speech, which contributes to the

163

See Mt. Healthy City Sch. Dist. Bd. of Educ. v. Doyle, 429 U.S.

274, 285, 97 S.Ct. 568, 50 L.Ed.2d 471 (1977).

See Connick v. Myers, 461 U.S. 138, 146, 103 S.Ct. 1684,
1689–90, 75 L.Ed.2d 708 (1983).

164

165

Id., at 147–48, 103 S.Ct. 1684.

166

Id. at 146, 103 S.Ct. 1684.

167

Id. at 147, 103 S.Ct. 1684.

See Kennedy v. Tangipahoa Parish Library Bd. of Control, 224
F.3d 359, 366 (5th Cir. 2000), abrogated on other grounds as
stated in Cuvillier v. Taylor, 503 F.3d 397, 401 n.4 (5th Cir. 2007).
168

65a

[disciplinary action], relates to a matter of public
concern, the court must conduct a balancing of
interests test as set forth in Pickering v. Board of
Education.”169
*817 [25] [26]The Court finds that Plaintiff’s use of
profanity and discussions regarding her own sex life
and the sex lives of her students in the classroom do
not constitute First Amendment protected speech, are
not matters of public concern, and are not, as claimed
by Plaintiff, part of her overall pedagogical strategy for
teaching preschool and elementary education to
students as there is no summary judgment evidence to
support such a claim. The Court finds support from the
Fifth Circuit’s decision in J.D. Martin v. Parrish,170 a
case wherein a college teacher brought a Section 1983
action against Midland College alleging that he had
been discharged for exercising his First Amendment
right to free speech. Martin, an economics professor at
Midland, was disciplined after students complained
about his constant use of profanity in the classroom.
Despite administrative attempts to stop Martin’s
Rahn v. Drake Ctr., Inc., 31 F.3d 407, 411–12 (6th Cir.1994);
see also Connick, 461 U.S. at 147, 103 S.Ct. 1684 (finding that
169

“when a public employee speaks not as a citizen upon matters of
public concern, but instead as an employee upon matters only of
personal interest,” no First Amendment protection is afforded to
the speech); Johnson v. Lincoln University of Com. System of
Higher Educ., 776 F.2d 443, 451 (3d Cir. 1985) (finding that the
fact that a statement evolves from a personal dispute does not
preclude some aspect of it from touching upon matters of public
concern).
170

805 F.2d 583 (5th Cir. 1986).

66a

behavior, he persisted in cursing and ultimately
delivered the following “outburst” in class in response
to student complaints: “the attitude of the class sucks
... is a bunch of bullshit,” “you may think economics is
a bunch of bullshit,” and “if you don’t like the way I
teach this God damn course there is the door.”171 Upon
notice of this outburst, the Dean instituted actions
which culminated in Martin’s termination. Martin
sued under Section 1983 claiming an alleged
deprivation of his First Amendment right of free
speech, abridgement of an alleged right of academic
freedom, and denials of due process and equal
protection.172 Although Martin won a jury verdict in
his favor on his free speech claim, the Fifth Circuit
reversed and noted: “Some of the jury interrogatories
regarding the free speech issue asked for a balancing
of Martin’s language between its usefulness to his
instruction and its disruptive tendency. Such
balancing involves a question of law for the court.”173
The Fifth Circuit noted that “[t]he ‘rights’ of the
speaker are thus always tempered by a consideration
of the rights of the audience and the public purpose
served, or disserved, by his speech. Appellant’s
argument, by ignoring his audience and the lack of any
public purpose in his offensive epithets, founders on

171

Id. at 584.

172

Id.

173

Id., n. 1 (citation omitted).

67a

several fronts.”174 The court held as follows regarding
whether Martin’s speech was a matter of public
concern:
There is no doubt that Martin’s epithets
did not address a matter of public
concern. One student described Martin’s
June 19, 1984, castigation of the class as
an explosion, an unprovoked, extremely
offensive, downgrading of the entire
class. In highly derogatory and indecent
terms, Martin implied that the students
were inferior because they were
accustomed to taking courses from
inferior, part-time instructors at Midland
College. The profanity described Martin’s
attitude toward his students, hardly a
matter that, but for this lawsuit, would
occasion public discussion. Appellant has
not argued that his profanity was for
*818 any purpose other than cussing out
his students as an expression of
frustration with their progress—to
“motivate” them—and has thereby
impliedly conceded his case under

Connick.175

The Fifth Circuit further held that, “[r]epeated failure
by a member of the educational staff of Midland

174

Id.

175

Id. at 585.

68a

College to exhibit professionalism degrades his
important mission and detracts from the subjects he is
trying to teach.”176 The Fifth Circuit noted the trial
testimony that Martin’s conduct strongly influenced
the students in that one student claimed he had “lost
interest in economics as a result of Martin’s belittling
comments,” and another student “expressed his
reticence to asking questions in class for fear of
Martin’s ridicule.”177 Ultimately, the court held: “To
the extent that Martin’s profanity was considered by
the college administration to inhibit his effectiveness
as a teacher, it need not be tolerated by the
college....”178 Further, distinguishing jurisprudence on

176

Id.

177

Id.

Id. at 585–86. The court noted in n 4: “Our conclusion that a
public college teacher’s classroom use of profanity is
unprofessional and may be prohibited by the school relies on the
judgment of the Midland College administrators who testified at
trial. As the Supreme Court held in Board of Education v. Pico,
457 U.S. 853, 864–65, 102 S.Ct. 2799, 2806, 73 L.Ed.2d 435 (1982),
federal courts should ordinarily decline to intervene in the affairs
of the public schools, where the ‘comprehensive authority of States
and of school officials ... to prescribe and control conduct has
historically been acknowledged’. This rule has been enforced in all
but the most sensitive constitutional areas. Several Midland
College administrators testified on the basis of strong educational
credentials and years of experience in their vocation and in the
local community. On their shoulders rest the college’s educational
standards and its utility as a publicly-supported institution. The
federal courts thus appropriately respect the professional
conclusion of those whose past and future careers depend upon the
esteem due to Midland College. ‘The determination of what

178

69a

which Martin relied, the Fifth Circuit stated:
However, we hold that the students in
Martin’s classroom, who paid to be
taught and not vilified in indecent terms,
are subject to the holding of Pacifica,
which, like Cohen, recognizes that
surroundings and context are essential,
case-by-case determinants of the
constitutional protection accorded to
indecent language. Martin’s language is
unprotected under the reasoning of these
cases because, taken in context, it
constituted a deliberate, superfluous
attack on a “captive audience” with no
academic purpose or justification.179
Although not binding, decisions from other federal
appellate courts also support the Court’s holding. The
Sixth Circuit’s decision in Bonnell v. Lorenzo180 is
particularly applicable to this case. The college
professor in Bonnell was disciplined for his gratuitous
in-class use of the words “pussy,” “cunt,” and “fuck,”
which had given rise to a sexual harassment complaint

manner of speech in the classroom ... is inappropriate properly
rests with the school board.’ Bethel School District No. 403 v.
Fraser, 478 U.S. 675, 106 S.Ct. 3159, 3165, 92 L.Ed.2d 549
(1986).”
179

Id. at 586.

180

241 F.3d 800 (6th Cir. 2001).

70a

filed by one of the professor’s students.181 Because
Bonnell’s offensive language was “not germane to the
subject matter,” the court concluded that he did “not
have a constitutional right to use [these terms] in a
classroom setting.”182 Specifically, the *819 university
had issued a warning to the plaintiff as follows:
Unless germane to discussion of
appropriate course materials and thus a
constitutionally protected act of academic
freedom, your utterance in the classroom
of such words as ‘fuck,’ ‘cunt,’ and ‘pussy’
may serve as a reasonable basis for
concluding as a matter of law that you
are fostering a learning environment
hostile to women, a form of sexual
harassment. Federal and state law
imposes a duty on the College to prevent
the sexual harassment of its students
and therefore requires that the College
discipline you if it finds that you have
created a hostile environment.183
181

Id. at 803.

182

Id. at 820.

Id. at 803–04. The warning continued: “The principle of
academic freedom under the 1st Amendment serves to protect the
utterances in question only if they are germane to course content
as measured by professional teaching standards. Since the precise
frontier between academic freedom and sexual harassment
remains to be defined by the courts case by case, a teacher of
English literature or composition courses may be able to find
safety and comfort under the 1st Amendment only if the words
183

71a

Despite this warning, the complaints about Bonnell
continued. One student complained that his comments
were “dehumanizing, degrading, and sexually
explicit.”184
In support of its holding, the Bonnell court relied on
and discussed in detail the Fifth Circuit’s decision in
Martin and held:
Plaintiff may have a constitutional right
to use words such as “pussy,” “cunt,” and
“fuck,” but he does not have a
constitutional right to use them in a
classroom setting where they are not
germane to the subject matter, in
contravention of the College’s sexual
harassment policy. See id.; see also FCC
v. Pacifica Found., 438 U.S. 726, 747, 98
S.Ct. 3026, 57 L.Ed.2d 1073 (1978)
(finding speech that is “ ‘vulgar,’
‘offensive,’ and ‘shocking’ ... is not
entitled to absolute constitutional
protection under all circumstances”).

uttered are found in appropriate textual materials and the
utterances are pertinent to discussion of those materials. Beyond
this point, the teacher enters uncharted territory and proceeds at
his or her own risk of being found guilty of sexual harassment.
Consequently, you are warned that a general use in the classroom
of words like ‘fuck,’ ‘cunt,’ and ‘pussy’ outside a professional
exegesis may compel the conclusion that you are creating a hostile
learning environment requiring disciplinary action.” Id. at 804.
184

Id. at 804.

72a

This is particularly so when one
considers the unique context in which the
speech is conveyed—a classroom where a
college professor is speaking to a captive
audience of students, see Martin, 805
F.2d at 586, who cannot “effectively avoid
further bombardment of their
sensibilities simply by averting their
[ears].” Hill [v. Colorado, 530 U.S. 703],
120 S.Ct. [2480] at 2489 [147 L.Ed.2d 597
(2000) ]. Although we do not wish to chill
speech in the classroom setting,
especially in the unique milieu of a
college or university where debate and
the clash of viewpoints are encouraged-if
not necessary—to spur intellectual
growth, it has long been held that despite
the sanctity of the First Amendment,
speech that is vulgar or profane is not
entitled to absolute constitutional
protection. See Pacifica, 438 U.S. at 747,
98 S.Ct. 3026.185
The Second Circuit’s decision in Vega v. Miller is also
applicable here.186 In Vega, a professor terminated by
a state college sued college administrators under
Section 1983 for violation of his First and Fourteenth
Amendment rights. The administrators moved for
summary judgment on the basis of qualified immunity.

185

Id. at 819.

186

273 F.3d 460 (2nd Cir. 2001).

73a

The district *820 court held the administrators were
not entitled to qualified immunity, and they appealed.
The background facts are as follows:
In the summer of 1994, Vega taught a
six-week composition course at the
College’s Summer Institute, a program
designed for pre-freshmen who need
remedial courses prior to matriculation.
The students were male and female, aged
17 and 18. On July 21, Vega conducted a
free-association exercise called
“clustering,” in which students were
invited to select a topic, then call out
words related to the topic, and finally
group related words together into
“clusters.” According to Vega, the
exercise is intended to help students
reduce the use of repetitive words in
college-level essays.
The students selected “sex” as the topic
for the “clustering” exercise. Vega
understood the topic to be “sex and
relationships.” Vega then invited the
students to call out words or phrases
related to the topic, and he wrote at least
many of their responses on the
blackboard. The first words called out
were, as Vega described them, “very safe
words,” such as “marriage,” “children,”
and “wedding ring.” As the exercise
continued, the words called out included
74a

“penis,” “vagina,” “fellatio,” and
“cunnilingus.” Toward the end of the
exercise, with all but one of the students
yelling and two standing on chairs, the
following words and phrases were called
out: “cluster fuck,” “slamhole,” “bearded
clam,” “fist fucking,” “studded rubbers,”
“your [sic] so hard,” and “eating girls
out.”187
Vega wrote many of the words on the blackboard, but
“[a]t no point in the session did Vega seek to curtail
the vulgarity of what the students were yelling, or
terminate the exercise.”188 None of the students in the
class ever complained about this, but it came to the
attention of the administrators while investigating
another matter.189
Vega was confronted about this exercise, and he
turned over his lesson plans which included many
provocative topics. Vega was advised that the
administrators found the exercise inappropriate, and
that “it opened the door to bad publicity and possible
sexual harassment complaints.”190 Vega was advised
that he would not be offered reappointment for the
upcoming school year. Vega’s contract was officially
187

Id. at 462–63.

188

Id. at 463.

189

Id.

190

Id.

75a

terminated, and the supporting memorandum
explained that Vega’s termination was due to his “
‘reliance on sex as a theme’ and ‘use of sexually explicit
vocabulary’ in the clustering exercise.” 1 9 1
Subsequently, Vega filed suit.
In considering Vega’s First Amendment academic
freedom claim, the court noted jurisprudence that
“serves as a caution to governmental administrators
not to discipline a college teacher for expressing
controversial, even offensive, views lest a ‘pall of
orthodoxy’ inhibit the free exchange of ideas in the
classroom,”192 but distinguished Vega’s conduct finding
that “Vega’s toleration of the students’ shouted
vulgarities was far removed from [another plaintiff’s]
expression of his political views.”193 The Vega court
also noted that, while “a teacher may not be
disciplined simply because a vulgar word is contained
*821 and discussed in assigned materials, at least for
students of suitable age, ... the vulgarities Vega
permitted to be called out in his classroom were not
part of an etymological exploration, nor was the scene
in which all of the students but one were yelling their
contributions, with two standing on chairs, an
academic discussion.”194
191

Id.

Id. at 467 (citing Keyishian v. Board of Regents, 385 U.S. 589,
603, 87 S.Ct. 675, 17 L.Ed.2d 629 (1967)).
192

193

Id.

194

Id.

76a

The Vega court also held that, considering the state of
the law at the time of Vega’s conduct, the defendants
were entitled to qualified immunity for disciplining
Vega:
[T]he Defendants could reasonably
believe that in disciplining Vega for not
exercising professional judgment to
terminate the episode, they were not
violating his clearly established First
Amendment academic freedom rights.
Even though no students complained,
what students will silently endure is not
the measure of what a college must
tolerate or what administrators may
reasonably think that a college need not
tolerate.195
Plaintiff likens her case to Hardy v. Jefferson
Community College.196 In Hardy, the Sixth Circuit held
that a professor’s right to use the words “nigger” and
“bitch” during a classroom discussion on the power of
words to marginalize and oppress outweighed the
college’s interest in regulating offensive speech.197
Hardy involved the use of controversial words in a
class identified as “Introduction to Interpersonal
Communication.” The students were to examine how

195

Id. at 468.

196

260 F.3d 671 (6th Cir. 2001).

197

See id. at 682.

77a

language is used to marginalize minorities and other
oppressed groups in society. The lecture included an
analysis of words that have historically served the
interests of the dominant culture in which they
arise.198

Hardy is easily distinguished from the present case.

There is no argument or jurisprudence before the
Court which support Plaintiff’s claim that using the
word “pussy” and “fuck,” or discussing her own or
students’ sex lives and/or reproductive decisions, are
relevant to educating students on becoming teachers
of preschool through third grade students. These
words and/or discussions are not relevant to the
subject matter being taught. Indeed, even Hardy
makes clear that academic freedom protects only
speech in the context of instructional communication
of “an idea transcending personal interest or opinion
which impacts our social and/or political lives.”199 Even
in Vega and Cohen, the objectionable conduct and
language was related to the class material and used as
part of class assignments.200
Applying the Fifth Circuit’s decision in Martin to the
facts of this case, the Court finds that Plaintiff has
failed to create a genuine issue of material fact that
198

See id. at 674–75.

199

Id. at 679 (internal citations omitted).

200

This is not to say that instructional speech much occur in the
classroom to be protected, but the speech much be related to
academic instruction to be afforded constitutional protection.

78a

her comments were in any way related to her
pedagogical strategy for teaching preschool and
elementary education to future teachers. Plaintiff has
presented no summary judgment evidence that use of
the words “pussy,” “fuck,” and other explicit words are
germane to the subject matter being taught.
Discussions of students and/or Plaintiff’s sex lives in
class is likewise not related in any way to the subject
matter being taught. As found in Martin, Plaintiff has
offered no evidence that her *822 speech and/or
conduct served an academic purpose or justification.
Further, the student complaints herein in many ways
mirror those in Martin in that Plaintiff’s students
avoided her class, avoided speaking up in class, and
felt embarrassed and/or harassed by Plaintiff’s
conduct. Dr. Cheek reported that a “cohort” of between
ten and twelve students complained that they felt
sexually harassed by Plaintiff and submitted a written
complaint in 2012 regarding Plaintiff’s classroom
language and conduct.201 Curry testified that one
student previously discussed felt “attacked” and
fearful” following Plaintiff’s classroom conduct.202
Curry testified that, when asked if she wanted to
speak to Plaintiff about the incident, this student
responded: “I don’t want to ever have her as a
professor again.”203 Additionally, the fact that Zachary

201

Rec. Doc. No. 65–4, pp. 6–7, Deposition of Curry, pp. 80–81.

202

Id. at p. 5, Deposition of Curry, p. 72, lines 11–12.

203

Id. at p. 5; Deposition of Curry, p. 72, lines 12–14.

79a

Schools, the LSU Lab School, Port Allen Elementary
Schools, and Iberville Parish Schools had either
banned Plaintiff from their campuses or requested
that LSU not allow her to mentor their student
teachers due to Plaintiff’s conduct and speech further
demonstrates that Plaintiff’s conduct and speech
served no pedagogical purpose. Rather, the record
supports a finding that Plaintiff’s behavior and speech
interfered with the educational opportunities of her
students both in the classroom and in the student
teacher or field setting.
Plaintiff has utterly failed to present any summary
judgment evidence establishing how her conduct and
language related in any way to assignments,
instruction, and education of preschool and elementary
teachers. The argument that Plaintiff used such
language because her students would encounter same
by their future preschool through third grade students
and parents is unsupported by any record evidence
and rejected by the Court as spurious.
For the reasons set forth above, the Court finds that
Plaintiff’s speech is not protected by the academic
freedom exception to Garcetti and did not involve a
matter of public concern. As such, “it is unnecessary
for the court to scrutinize the reason for the
discipline.”204 Further, it is undisputed that Plaintiff’s
speech was made while performing her official duties
of teaching and supervising student teachers.
Plaintiff’s argument that the speech was part of her
204

Connick, 461 U.S. at 146, 103 S.Ct. 1684.

80a

pedagogical strategy is unsupported by evidence and
without merit as set forth above.
[27]Even if the Plaintiff’s speech were protected, the
Court, nonetheless, finds that the Defendants are
entitled to the defense of qualified immunity. Based on
the clearly established law in place at the time of
Plaintiff’s conduct, the Court finds that the actions of
the Defendants were objectively reasonable. It was
objectively reasonable for Defendants Monaco,
Reinoso, and Dean Andrew, prompted by complaints
from students and the fact that several local schools
would not allow Plaintiff to return to their campuses,
to conduct an investigation into Plaintiff’s conduct,
report such findings up the administrative chain, and
recommend a due process hearing before a faculty
committee. The Court further finds that Alexander’s
conduct—recommending Plaintiff’s dismissal to the
Board despite the faculty committee’s recommendation
for censure—was also objectively reasonable under the
facts of this case. LSU policy clearly allows the
Chancellor to make his own recommendation *823
irrespective of that of the faculty committee.205
Accordingly, Defendants are entitled to summary
judgment on Plaintiff’s First Amendment claims.
2. Constitutional Challenge to LSU’s Sexual
Harassment Policies
Plaintiff also claims that LSU’s sexual harassment
policies are unconstitutional both facially and as205

See Rec. Doc. No. 35–6, p. 56.

81a

applied because they are overbroad and lack the
necessary objective test for offensiveness. Defendants
challenge Plaintiff’s standing to seek a declaratory
judgment that LSU’s sexual harassment policies are
unconstitutional pursuant to 28 U.S.C. § 2201 and
Fed. R. Civ. P. 57 and a permanent injunction
prohibiting Defendants from enforcing these policies
on LSU faculty and students. Defendants also contend
LSU’s policies are reasonable per se for purposes of
qualified immunity because the policies are consistent
with federal policies on sexual harassment.
Defendants maintain that they reasonably believed
Plaintiff’s speech in violation of the policies was
unprotected under the First Amendment. LSU’s sexual
harassment policies are allegedly consistent with the
United States Department of Education’s Office of
Civil Rights (“OCR”) and Department of Justice
(“DOJ”) “blueprint for colleges and universities
throughout the country.”206
Plaintiff argues she has standing to seek declaratory
and injunctive relief against the Defendants because,
although she no longer teaches at LSU, and may not
return, “the collateral and future consequences of
applying PS–73 and PS–95 to her, given the blemish
on her record, afford her standing to challenge
them.”207
206

See

www.justice.gov/sites/default/files/opa/legacy/2013/05/09/um-ltrfindings.pdf.
Rec. Doc. No. 35–1, p. 17, n. 21, citing Esfeller v. O’Keefe, 391
Fed.Appx. 337, 340 (5th Cir. 2010).
207

82a

Plaintiff claims that any regulation of harassment
aimed at preventing a hostile educational environment
must be drafted and applied with narrow specificity to
avoid violating the First Amendment. Plaintiff
contends the sexual harassment definitions in LSU’s
policies violate the basic constitutional requirements
set forth by the Supreme Court’s decision in Davis v.
Monroe County Board of Education.208 Further,
Plaintiff contends LSU’s policy definitions are
effectively the same as those held unconstitutional by
the Third Circuit in DeJohn v. Temple University.209
Relying on the Third Circuit’s language, Plaintiff
contends that “unwelcome verbal ... behavior of a
sexual nature,” without any requirement of objective
offensiveness or interference with a reasonable
person’s access to his or her education, encompasses
any potentially sex-related speech deemed
“unwelcome” even if that person is uniquely sensitive.
Citing the Supreme Court’s decision in Papish v. Board
of Curators of Univ. of Mo.,210 Plaintiff maintains that,
“[u]nder the First Amendment, a public institution
may not broadly ban any sex-related speech based
simply on its potential to offend.”211 Therefore, Plaintiff
contends that LSU’s policies lack the requirement of
an objective test for offensiveness and are, thus,
unconstitutional.
208

526 U.S. 629, 119 S.Ct. 1661, 143 L.Ed.2d 839 (1999).

209

537 F.3d 301 (3rd Cir. 2008).

210

410 U.S. 667, 670, 93 S.Ct. 1197, 35 L.Ed.2d 618 (1973).

211

Rec. Doc. No. 35–1, p. 18.

83a

Plaintiff also contends Defendants’ reliance on the
OCR/DOJ blueprint is irrelevant as various university
speech codes and enforcement actions have been
invalidated *824 despite the schools’ invocation of
their obligation to enforce such rules under civil rights
statutes.212 Plaintiff argues that the OCR/DOJ
blueprint upon which LSU relies lacks necessary
constitutional safeguards, and “[n]o ‘interpretive
guidance’ from the federal government can alter these
constitutional minimums.”213 Plaintiff contends that
federal agency interpretations cannot immunize
universities against constitutional claims because such
pronouncements are only controlling if they do not
violate the Constitution. As the Supreme Court has
stated, courts cannot “accept the contention that the
State has a compelling interest in complying with [ ]
whatever mandates [DOJ] issues.”214
In addition to challenging the facial constitutionality
of LSU’s policies, Plaintiff also contends these policies
were unconstitutional as applied to her. Plaintiff
claims Reinoso did not examine events in context,
particularly Cancienne’s initial complaints. Plaintiff

Id. at p. 19, citing Iota Xi Chapter of Sigma Chi Fraternity v.
George Mason Univ., 993 F.2d 386, 388–89 (4th Cir. 1993); Saxe,
240 F.3d at 205–06; Rodriguez, 605 F.3d at 709 (“First

212

Amendment principles must guide [ ]interpretation of the right to
be free of purposeful [ ] harassment” in colleges.).

Id., quoting Miller v. Johnson, 515 U.S. 900, 923, 115 S.Ct.
2475, 132 L.Ed.2d 762 (1995).

213

214

Miller, 515 U.S. at 922, 115 S.Ct. 2475.

84a

contends this complaint became a center-piece of the
sexual harassment findings although Cancienne was
more upset that his school had been criticized and
testified that he did not interpret Plaintiff’s comments
as sexual in nature.215 Plaintiff further argues that
Cancienne’s complaint that Plaintiff used the word
“pussy” somehow “telephoned” its way into complaints
regarding a student who was not present for the
utterances, and was then repeated across the sexual
harassment findings and recommendations although
it was later admitted that Cancienne applied no sexual
connotation to the term.216 Plaintiff maintains Reinoso
could have learned of this had he spoken to Cancienne
and not relied on what others passed along and his
own assumptions.
Plaintiff further claims that most of the statements
described in Reinoso’s report did not contribute to his
ultimate finding because many witness claims were
not corroborated and others did not support this
finding at all as they had nothing to do with sexual
harassment.217 In fact, Plaintiff contends most of the
expletives and colloquialisms emphasized by some
witnesses admittedly did not constitute sexual
harassment.218 Indeed, most of what was deemed
inappropriate did not play a role in the sexual
215

Rec. Doc. No. 36–1, ¶¶ 35, 37–39.

216

Id.

217

Id., ¶ 91.

218

Id., ¶ 92.

85a

harassment finding. Plaintiff claims that, ultimately,
the sexual harassment finding “rested on a handful of
scattered, isolated utterances.”219 Thus, Plaintiff
contends Reinoso’s report “finding” that she committed
sexual harassment, based in large part on conduct not
considered to be sexual harassment, “snowballed
toward[s] Buchanan’s dismissal.”220
Plaintiff contends Dean Andrew relied on Reinoso’s
faulty report in setting the matter for a PS–104
hearing. Plaintiff further claims that Dean Andrew’s
memo to the Provost is “a confession not only of intent
to fire a tenured professor based on pedagogy and
performance, but that the only way he could think of
to do so was *825 through LSU’s defective sexual
harassment policies.”221 Next, she claims the hearing
testimony only further advanced the same problematic
information. Further, even though the committee
found sexual harassment policy violations, it did not
recommend termination.
Notwithstanding this recommendation, Plaintiff
claims Defendants continued to pursue her
termination based on “irrelevant evidence.”222 Plaintiff
contends Alexander rejected the committee
recommendation “despite having not read the PS–104
219

Rec. Doc. No. 35–1, p. 21.

220

Id.

221

Id. at p. 22.

222

222 Id.

86a

hearing transcript, not knowing the definition of
sexual harassment the committee used, not
understanding the constitutional standard, and
generally not knowing what actually happened.”223
What has resulted, Plaintiff contends, is exactly what
happens when harassment policies are not sufficiently
defined or limited, and it is why she claims her
termination was unconstitutional.
a. Policy Language
LSU Policy PS–73 defines sexual harassment as:
speech and/or conduct of a sexually
discriminatory nature, which was neither
welcomed nor encouraged, which would
be so offensive to a reasonable person as
to create an abusive working or learning
environment and/or impair his/her
performance on the job or in the
classroom.224
PS–73 also provides that:
The intent of his policy is to express the
University’s commitment and
responsibility to protect its employees
and students from sexual harassment

223

Id., citing Rec. Doc. No. 36–1, ¶ 144.

224

Rec. Doc. No. 1, ¶ 24, quoting Rec. Doc. No. 1–2, p. 2 (emphasis
added).

87a

and from retaliation for participating in
a sexual harassment complaint. It is not
intended to infringe upon constitutionally
guaranteed rights nor upon academic
freedom.225
PS–73 defines sexual harassment, in part, as follows:
Sexual harassment is also defined as
unwelcome verbal or physical conduct of
a sexual nature or gender-based conduct
in which the conduct has the purpose or
effect of unreasonably interfering with an
individual’s work performance or
creating an intimidating, hostile or
offensive working environment.
Examples include unwelcome touching;
persistent, unwanted sexual/romantic
attention or display of sexually oriented
materials; deliberate, repeated genderbased humiliation or intimidation, and
similar sexually oriented behavior of an
intimidating or demeaning nature.226
LSU’s policy on sexual harassment of students, PS–95,
defines sexual harassment as follows:
Unwelcome verbal, visual, or physical
behavior of a sexual nature. It includes

225

Rec. Doc. No. 1–2, p. 2.

226

Id. at p. 3.

88a

quid pro quo harassment and hostile
environment harassment, which “has the
purpose or effect of unreasonably
interfering with an individual’s
academic, work, team or organization
performance or creating an intimidating,
hostile or offensive working
environment.”227
Further, PS–95 describes examples of hostile work
environments, including “unwelcome touching or
suggestive comments, offensive language or display of
sexually oriented materials, obscene gestures, and
*826 similar sexually oriented behavior of an
intimidating or demeaning nature.”228
b. Standing
[28]Defendants claim Plaintiff lacks standing to
challenge the constitutionality of LSU’s sexual
harassment policies because she has been discharged
and cannot be reinstated. Plaintiff relies on the Fifth
Circuit’s decision in Esfeller v. O’Keefe229 in support of
her standing to bring this claim.
In Esfeller, a student at LSU filed suit against the
Chancellor and Board of Supervisors under Sections

227

Id. ¶ 24, quoting Rec. Doc. No. 1–2, p. 6 (emphasis added).

228

Id. at ¶ 25.

229

391 Fed.Appx. 337 (5th Cir. 2010).

89a

1983 & 1988, seeking a preliminary and permanent
injunction against enforcement of LSU’s code of
conduct. Esfeller had been charged with four nonacademic misconduct violations arising from a dispute
he had with his former girlfriend, who had filed a
complaint with LSU police.230 The former girlfriend
alleged that Esfeller had persistently harassed and
stalked her through various social networking sites
and that he had physically confronted her.231
Esfeller met with a dean regarding the alleged
violations, and the dean conducted an investigation
which ultimately resulted in Esfeller being found in
violation of the code of conduct.232 Esfeller rejected the
sanctions offered by LSU and requested a second
investigation.233 A second dean investigated the
matter, and the same result was reached.234 Esfeller
again rejected the proposed sanctions and requested a
panel hearing.235
The panel hearing resulted in a unanimous finding
that Esfeller was in violation of the code. Esfeller

230

Id. at 338.

231

Id.

232

Id.

233

Id. at 339.

234

Id.

235

Id.

90a

appealed this decision to the Vice Chancellor who
denied the appeal. Esfeller then sought review by
LSU’s Chancellor, who also denied the appeal.236
Esfeller filed suit against Chancellor O’Keefe in his
official capacity and the Board, alleging inter alia that
LSU’s code of conduct is facially and as-applied
overbroad and vague. The district court denied
preliminary injunctive relief, and Esfeller appealed.237
The Fifth Circuit first addressed whether Esfeller met
the requirements for Article III standing and stated as
follows:
We briefly address whether Esfeller
meets the requirements for Article III
jurisdiction. Tex. Office of Pub. Util.
Counsel v. FCC, 183 F.3d 393, 413 n. 16
(5th Cir.1999). He is no longer a student
at LSU, having been expelled because of
a low grade-point average. Further, he
has no plans to return to LSU. Mootness
goes to the heart of the court’s Article III
jurisdiction. A case becomes moot if: “(1)
there is no reasonable expectation that
the alleged violation will recur and (2)
interim relief or events have completely
and irrevocably eradicated the effects of
the alleged violation.” Id. at 413–14.
Standing alone, Esfeller’s request for

236

Id.

237

Id.

91a

injunctive relief invalidating the
offending Code provision is moot. Where
a student is no longer enrolled in the
school whose policies he is challenging,
there is no case or controversy sufficient
to support prospective injunctive relief.
See *827 Ward v. Santa Fe Indep. Sch.
Dist., 393 F.3d 599, 606 (5th Cir.2004);
Hole v. Tex. A & M Univ., No. 04-CV-175
[2009 WL 8173385 at *6–7], 2009 U.S.
Dist. LEXIS 123291 at *20 (S.D.Tex. Feb.
10, 2009). Here, however, Esfeller
received a disciplinary sanction, reflected
on his academic record and he seeks to
prevent the University from enforcing
that punishment. Thus, there are
collateral or future consequences
sufficient to satisfy the case or
controversy requirement. Cf. Kennedy v.

MindPrint (In re ProEducation Int’l,
Inc.), 587 F.3d 296, 299 n. 1 (5th

Cir.2009) (holding that injury to
attorney’s reputation stemming from
disqualification order sufficed to confer
Article III jurisdiction for appeal); see

also Sullivan v. Houston Indep. Sch.
Dist. , 307 F.Supp. 1328, 1338

(S.D.Tex.1969). Although, absent the
blemish on his academic record, Esfeller
would not have a live controversy or
standing to challenge the validity of the
Code now that he is no longer subject to
it, the sanction is an actual, concrete
92a

injury sufficient to satisfy Article III. See
Fairchild v. Liberty Indep. Sch. Dist., 597
F.3d 747, 754 (5th Cir.2010). Thus, he
can seek to invalidate the Code
provisions and enjoin their application
because, if successful, Esfeller will no
longer be subject to the disciplinary
sanction, which would be removed from
his record.238
For the same reasons as set forth in Esfeller, The
Court finds that Plaintiff has demonstrated Article III
standing to bring the constitutional challenges to
LSU’s policies. First, she is seeking reinstatement, and
second, this has blemished her record and could
subject her to collateral injury when she seeks new
employment.
c. Facial and As–Applied Challenges
[29] [30] [31]“A facial challenge to a law is ‘the most
difficult challenge to mount successfully, since the
challenger must establish that no set of circumstances
exists under which the [law] would be valid.’ ”239
Although courts generally will pass on facial
challenges, there is an exception for First Amendment

238

Id. at 339–40 (emphasis added).

Pounds v. Katy Independent School Dist., 517 F.Supp.2d 901,
911–912 (S.D. Tex. 2007)(quoting United States v. Salerno, 481
U.S. 739, 746, 107 S.Ct. 2095, 95 L.Ed.2d 697 (1987)).
239

93a

challenges based on overbreadth.240 Courts will
consider this doctrine as a last resort and apply it only
when “the law may have a chilling effect on the free
speech rights of those not before the court.”241 A facial
challenge fails when there is no “realistic danger” that
the law will “significantly compromise recognized First
Amendment protections of parties not before the
Court.”242
[32] [33]“Under the First Amendment overbreadth
doctrine, an individual whose own speech or conduct
may be prohibited is permitted to challenge a statute
on its face because it also threatens others not before
the court—those who desire to engage in legally
protected expression but who may refrain from doing
so rather than risk prosecution or undertake to have
the law declared partially invalid.”243 Because *828 the
application of the overbreadth doctrine is “manifestly
strong medicine,” before a statute or regulation may be
invalidated on its face, the overbreadth must be
Id., citing Los Angeles Police Dep’t v. United Reporting Publ’g
Corp., 528 U.S. 32, 38, 120 S.Ct. 483, 145 L.Ed.2d 451 (1999).
240

West v. Derby Unified Sch. Dist. No. 260, 206 F.3d 1358, 1367
(10th Cir.2000) (citing United Reporting Publ’g Corp., 528 U.S. at
38–39, 120 S.Ct. 483)).
241

242

See Members of the City Council v. Taxpayers for Vincent, 466

U.S. 789, 801, 104 S.Ct. 2118, 80 L.Ed.2d 772 (1984).
243

Roberts v. Haragan, 346 F.Supp.2d 853, 871 (N.D. Tex.
2004)(quoting Board of Airport Comm’rs of City of Los Angeles v.
Jews for Jesus, Inc., 482 U.S. 569, 574, 107 S.Ct. 2568, 2572, 96
L.Ed.2d 500 (1987)) (internal quotations omitted).

94a

“substantial.”244 “[T]here must be a realistic danger
that the statute itself will significantly compromise
recognized First Amendment protections of parties not
before the Court for it to be facially challenged on
overbreadth grounds.”245 The issue for First
Amendment purposes is whether the law in question
reaches “a substantial amount of constitutionally
protected conduct.”246
In Esfeller, the Fifth Circuit noted:
“A school need not tolerate student
speech that is inconsistent with its ‘basic
educational mission,’ even though the
government could not censor similar
speech outside the school.” Hazelwood
Sch. Dist. v. Kuhlmeier, 484 U.S. 260,
266, 108 S.Ct. 562, 98 L.Ed.2d 592 (1988)
(quoting Bethel Sch. Dist. No. 403 v.
Fraser, 478 U.S. 675, 685, 106 S.Ct.
3159, 92 L.Ed.2d 549 (1986)). The highest
level of scrutiny—applied to school
regulations that are viewpointspecific—requires the school to show that

Id., quoting Board of Airport Comm’rs, 482 U.S. at 574, 107
S.Ct. 2568.

244

Board of Airport Comm’rs, 482 U.S. at 574, 107 S.Ct. 2568,
quoting City Council of Los Angeles v. Taxpayers for Vincent, 466
U.S. 789, 801, 104 S.Ct. 2118, 2126, 80 L.Ed.2d 772 (1984)).
245

246

City of Houston v. Hill, 482 U.S. 451, 458, 107 S.Ct. 2502, 2508,

96 L.Ed.2d 398 (1987).

95a

the expression would “substantially
interfere with the work of the school or
impinge upon the rights of other
students.” Tinker v. Des Moines Indep.
Cmty. Sch. Dist., 393 U.S. 503, 509, 89
S.Ct. 733, 21 L.Ed.2d 731 (1969). Thus,
for Esfeller’s facial challenge to succeed,
the overbreadth must be “substantial in
relation to the [provision’s] legitimate
reach.” Hersh [v. U.S. ex rel. Mukasey],
553 F.3d [743] at 762 [(5th Cir. 2008)].247
[34] [35]A First Amendment “as-applied” claim is a
challenge to the statute’s application to the litigants’
own expressive activities.248 The underlying First
Amendment standard for an as-applied challenge is no
different than the standard for a facial challenge.249
However, the Fifth Circuit has noted that “[c]onfusion
abounds over the scope of as-applied and other types
of First Amendment challenges that a plaintiff can
pursue when challenging a statute.”250
247

Esfeller, 391 Fed.Appx. at 341.

Jornaleros de Las Palmas v. City of League City, 945 F.Supp.2d
779, 798 (S.D. Tex. 2013)(citing Members of City Council of City
of Los Angeles v. Taxpayers for Vincent, 466 U.S. 789, 803, 104
S.Ct. 2118, 80 L.Ed.2d 772 (1984)).

248

Id. (citing Citizens United v. Federal Election Comm’n, 558
U.S. 310, 331, 130 S.Ct. 876, 175 L.Ed.2d 753 (2010)).

249

Justice v. Hosemann, 771 F.3d 285, 292 (5th Cir. 2014)(citing
Scott Keller & Misha Tseytlin, Applying Constitutional Decision
Rules Versus Invalidating Statutes In Toto, 98 Va. L.Rev. 301,
250

96a

d. Application
Plaintiff relies primarily on several opinions from
circuits outside of the Fifth Circuit.251 Plaintiff relies
on the Third Circuit’s *829 decision in Saxe v. State
College Area School District where the court struck
down a public school district’s anti-harassment policy
for overbreadth.252 The anti-harassment policy in Saxe
provided that:
Harassment means verbal or physical
conduct based on one’s actual or

307 (2012) (“The Supreme Court has explicitly acknowledged that
there is much confusion over the definitions and attributes of
facial, as-applied, and overbreadth challenges.”(citing United
States v. Stevens, 559 U.S. 460, 130 S.Ct. 1577, 1587, 176 L.Ed.2d
435 (2010)))).
251

The Court did not locate a Fifth Circuit case directly on point
on this issue. The Fifth Circuit has addressed a constitutional
challenge of overbreadth to a sexual harassment policy but not in
the context of a college setting. In DeAngelis v. El Paso Mun.
Police Officers Ass’n, 51 F.3d 591, 596 (5th Cir. 1995), the court
struck down a sexual harassment policy for city police officers
stating: “Where pure expression is involved,” anti-discrimination
law “steers into the territory of the First Amendment.” This is
especially true because, as the Fifth Circuit noted, when antidiscrimination laws are “applied to ...harassment claims founded
solely on verbal insults, pictoral or literary matter, the statute[s]
impose[ ] content-based, viewpoint-discriminatory restrictions on
speech.” Id. at 596–97. Nevertheless, DeAngelis is a case with very
different facts and is not instructive to LSU’s sexual harassment
policies presented here.
252

240 F.3d 200 (3rd Cir. 2001).

97a

perceived race, religion, color, national
origin, gender, sexual orientation,
disability, or other personal
characteristics, and which has the
purpose or effect of substantially
interfering with a student’s educational
performance or creating an intimidating,
hostile or offensive environment.
According to state law (18 Pa.C.S.A. §
2709), an individual commits the crime of
harassment when, with intent to harass,
annoy or alarm another person, the
individual subjects, or attempts or
threatens to subject, the other person to
unwelcome physical contact; follows the
other person in or about a public place or
places; or behaves in a manner which
alarms or seriously annoys the other
person and which serves no legitimate
purpose.253
The Saxe court then defined types of harassment in a
definitions section. For example, “racial or color
harassment” was defined as including “unwelcome
verbal, written, or physical conduct directed at the
characteristics of a person’s race or color ....”254 There,
the Third Circuit first noted that the policy exceeded
what is constitutionally permissible under Tinker by

253

Id. at 218.

254

Id. at 220.

98a

not only prohibiting speech that led to actual
interference of a student’s educational environment,
but also speech that was merely made with the
purpose of causing such disruptions.255 Second, the
court noted that even if the “purpose” language was
ignored, the examples of prohibited “harassment”
contained in the policy do not rise to the level of
substantial disruption.256 Third, the Saxe policy
prohibited speech that either had the purpose or effect
of creating substantial interference or created a hostile
educational environment.257 The court stated: “Because
the Policy’s ‘hostile environment’ prong does not, on its
face, require any threshold showing of severity or
pervasiveness, it could conceivably be applied to cover
any speech about some enumerated personal
characteristics the content of which offends
someone.258
However, the Saxe court stated:
We do not suggest, of course, that no
application of anti-harassment law to
expressive speech can survive First
Amendment scrutiny. Certainly,
preventing discrimination in the
workplace—and in the schools—is not
255

Id. at 217.

256

Id.

257

Id.

258

Id. at 217.

99a

only a legitimate, but a compelling,
government interest. See, e.g., Board of

Directors of Rotary International v.
Rotary Club of Duarte, 481 U.S. 537, 549,

107 S.Ct. 1940, 95 L.Ed.2d 474 (1987).
And, as some courts and commentators
have suggested, speech may be more
readily subject to restrictions when a
school or workplace audience is “captive”
and cannot *830 avoid the objectionable
speech. See, e.g., Aguilar [v. Avis Rent A
Car System, Inc., 21 Cal.4th 121], 87
Cal.Rptr.2d 132, 980 P.2d [846] at
871–73 [ (1999) ] (Werdegar, J.,
concurring). We simply note that we have
found no categorical rule that divests
“harassing” speech, as defined by federal
anti-discrimination statutes, of First
Amendment protection.259

The Saxe court further stated:
We do not suggest, of course, that a
public school may never adopt
regulations more protective than existing
law; it may, provided that those
regulations do not offend the
Constitution. Such regulations cannot be
insulated from First Amendment
challenge, however, based on the
argument that they do no more than
259

Id. at 209.

100a

prohibit conduct that is already unlawful.
Moreover, the Policy’s prohibition
extends beyond harassment that
objectively denies a student equal access
to a school’s education resources. Even on
a narrow reading, the Policy
unequivocally prohibits any verbal or
physical conduct that is based on an
enumerated personal characteristic and
that “has the purpose or effect of
substantially interfering with a student’s
educational performance or creating an
intimidating, hostile or offensive
environment.” (emphasis added). Unlike
federal anti-harassment law, which
imposes liability only when harassment
has “a systemic effect on educational
programs and activities,” Davis, 526 U.S.
at 633, 119 S.Ct. 1661 (emphasis added),
the Policy extends to speech that merely
has the “purpose” of harassing another.
This formulation, by focusing on the
speaker’s motive rather than the effect of
speech on the learning environment,
appears to sweep in those “simple acts of
teasing and name-calling” that the Davis
Court explicitly held were insufficient for
liability.260
The
260

Court

finds

the

Saxe

Id. at 210–11 (emphasis original).

101a

case

factually

distinguishable from the case at bar. First, the
harassment policy in Saxe is far more broad than
LSU’s policies as set forth above. The Saxe policy
contained a catch-all category of “other personal
characteristics” upon which one could be harassed that
is not present in the LSU policies, and it even
prohibited speech directed at one’s “values.”261 Thus,
Saxe is applicable to the issue herein only to the extent
that it holds that a “severe or pervasive” requirement
should be in a policy.
Plaintiff also relies heavily on another Third Circuit
decision, DeJohn v. Temple University,262 and it is the
strongest case in her favor. In DeJohn, the plaintiff
filed suit against Temple University arguing that the
following university policy governing sexual
harassment was overbroad:
For all individuals who are part of the
Temple community, all forms of sexual
harassment are prohibited, including ...
expressive, visual, or physical conduct of
a sexual or gender-motivated nature,
when ... (c) such conduct has the purpose
or effect of unreasonably interfering with
an individual’s work, educational
performance, or status; or (d) such
conduct has the purpose or effect of
creating an intimidating, hostile, or

261

Id. at 210.

262

537 F.3d 301 (3rd Cir. 2008).

102a

offensive environment.263
The plaintiff complained that, because of the
harassment policy, “he felt inhibited in expressing his
opinions in class concerning women in combat and
women in the military.”264
*831 The DeJohn court noted: “It is well recognized
that ‘[t]he college classroom with its surrounding
environs is peculiarly the “marketplace of ideas [,]’ ”265
and ‘[t]he First Amendment guarantees wide freedom
in matters of adult public discourse.’266 Discussion by
adult students in a college classroom should not be
restricted.”267 The DeJohn Court began its analysis by
explaining that “there is no ‘harassment exception’ to
the First Amendment’s Free Speech Clause; that is,
‘we have found no categorical rule that divests
harassing speech, as defined by federal antidiscrimination statutes, of First Amendment
protection.’ ”268 The court found the policy at issue in
DeJohn overbroad because the policy focused on the
motive of the speaker and not just the effect the speech
263

Id. at 305.

264

Id.

Id. at 315, quoting Healy v. James, 408 U.S. 169, 180, 92 S.Ct.
2338, 33 L.Ed.2d 266 (1972)).
265

266

Id., quoting Fraser, 478 U.S. at 682, 106 S.Ct. 3159.

267

Id.

268

Id. at 316 (quoting Saxe, 240 F.3d at 210 (footnote omitted)).

103a

had on the learning environment.269 The court reached
this conclusion through a careful application of the
Supreme Court’s ruling in Tinker, which requires that
a school must show that speech will cause a material
or substantial disruption before prohibiting it.270
Temple’s inclusion of regulation based on the speaker’s
intent was “contrary to Tinker’s requirement that
speech cannot be prohibited in the absence of a tenable
threat of disruption.”271
The court stated in particular that the policy’s use of
the words “hostile,” “offensive,” and “gendermotivated” is “on its face, sufficiently broad and
subjective that they ‘could conceivably be applied to
cover any speech’ of a ‘gender-motivated’ nature ‘the
content of which offends someone.’ ”272 Thus, “[a]bsent
any requirement akin to a showing of severity or
pervasiveness—that is, a requirement that the conduct
objectively and subjectively creates a hostile
environment or substantially interferes with an
individual’s work—the policy provides no shelter for
core protected speech.”273
269

Id. at 317.

270

Id.; see also Tinker, 393 U.S. at 509, 89 S.Ct. 733.

271

DeJohn, 537 F.3d at 317.

272

Id. at 317, quoting Saxe, 240 F.3d at 217.

Id. at 317–18, citing Saxe, 240 F.3d at 210–11 (referencing
Davis Next Friend LaShonda D. v. Monroe County Bd. of Educ.,
273

526 U.S. 629, 652, 119 S.Ct. 1661, 143 L.Ed.2d 839 (1999) (“[I]n
the context of student-on-student harassment, damages are

104a

The court also took issue with the language
“unreasonably interefere[s] with an individual’s work,”
stating that it
probably falls short of satisfying the
Tinker standard. If we were to construe
“unreasonable” as encompassing a
subjective and objective component, it
still does not necessarily follow that
speech which effects an unreasonable
interference with an individual’s work
justifies restricting another’s First
Amendment freedoms. Under Tinker,
students may express their opinions,
even on controversial subjects, so long as
they do so “without colliding with the
rights of others.” Tinker, 393 U.S. at 512,
89 S.Ct. 733. As we observed in Saxe,
while the precise scope of this language is
unclear, Saxe, 240 F.3d at 217, we do
believe that a school has a compelling
interest in preventing harassment. Yet,
unless *832 harassment is qualified with
a standard akin to a severe or pervasive
requirement, a harassment policy may
suppress core protected speech.274

available only where the behavior is so severe, pervasive, and
objectively offensive that it denies its victims the equal access to
education that Title IX is designed to protect.”)).
274

Id. at 319–20 (citations omitted).

105a

It is important to note, however, that the DeJohn court
did not suggest that all anti-harassment policies
violate the First Amendment. Indeed, the Third
Circuit has previously emphasized that “preventing
discrimination in the workplace—and in schools—is
not only a legitimate, but a compelling, government
interest.”275 Further, relevant to the present case, the
DeJohn court suggested that Temple’s policy could
have provided shelter for protected speech if it
“contained a requirement that the conduct objectively
and subjectively create[d] a hostile environment or
substantially interfere[d] with an individual’s work.”276
The Court also notes that there is a distinction
between a university’s obligation to regulate the
classroom speech of its students and that of its faculty.
Indeed, the university has a responsibility and
obligation to ensure that its students are not being
harassed or abused by those it has hired to educate.
The Court acknowledges that the language in LSU’s
policies is similar to that in the policy at issue in
DeJohn, but the policies are not exactly the same.
Although they lack the exact words “severe” or
“pervasive,” LSU’s policies do inject an objective
standard and require a heightened level of offense by
the phrase “so offensive to a reasonable person” in
PS–73, which is further enhanced by the definitions
and examples of prohibited conduct set forth in the
policy as quoted above. The definitions and examples

275

Id., citing Saxe, 240 F.3d at 210.

276

Id. at 318 (emphasis added).

106a

set forth in the policy reveal a requirement that the
conduct be severe and pervasive.
The Court has also considered the Ninth Circuit’s
decision in Cohen v. San Bernardino Valley College277
which is, in the Court’s view, the most factually
analogous to the case before the Court. In Cohen, a
tenured professor brought a Section 1983 action
against public community college officials in response
to a student grievance claiming sexual harassment
which allegedly violated the professor’s First
Amendment rights. Cohen taught a remedial English
class wherein one student became offended by Cohen’s
repeated focus on topics of a sexual nature, his use of
profanity and vulgarities, and by his comments she
believed were directed intentionally at her and other
female students in a humiliating and harassing
manner.278 During a particular class, Cohen began a
class discussion on pornography and played “devil’s
advocate” by asserting controversial viewpoints.279
Cohen proceeded to give the students an assignment
discussing pornography, and the complaining student
asked for an alternative assignment. When Cohen
refused to accommodate this request, the student
stopped attending Cohen’s class and received a failing
grade.280 The student then complained to the English
277

92 F.3d 968 (9th Cir. 1996).

278

Id. at 970.

279

Id.

280

Id.

107a

Department and filed a formal written student
grievance pursuant to a new sexual harassment policy
implemented by the university.281 The Policy in Cohen
states as follows:
Sexual harassment is defined as
unwelcome sexual advances, requests for
sexual favors, and other verbal, written,
or physical conduct of a sexual nature. It
*833 includes, but is not limited to,
circumstances in which:
1. Submission to such conduct is made
explicitly or implicitly a term or condition
of a student’s academic standing or
status.
2. Such conduct has the purpose or effect
of unreasonably interfering with an
individual’s academic performance or
creating an intimidating, hostile, or
offensive learning environment.
3. Submission to or rejection of such
conduct is used as the basis for academic
success or failure.282
The Grievance Committee held a hearing and
concluded that Cohen had violated the policy by

281

Id.

282

Id. at 971.

108a

creating a hostile learning environment.283 Cohen
appealed this decision to the Board which considered
the matter with new hearings. Both Cohen and the
student were represented by attorneys, and each of
them testified. Additionally, several students came
forward and testified about the sexual nature of
Cohen’s teaching material and his frequent use of
derogatory language, sexual innuendo, and
profanity.284 Ultimately, the Board found Cohen in
violation of the policy, ordered him to take specific
corrective actions, and warned him that further
violation of the policy would result in further discipline
“up to and including suspension or termination.”285
The Ninth Circuit held that the university’s policy was
unconstitutionally broad and violated Cohen’s
constitutional rights:
In this case, the College punished Cohen
based on his teaching methods under the
provision of the Policy which prohibits
conduct which has the “effect of
unreasonably interfering with an
individual’s academic performance or
creating an intimidating, hostile, or
offensive learning environment.” Cohen,
admittedly, uses a confrontational

283

Id.

284

Id.

285

Id.

109a

teaching style designed to shock his
students and make them think and write
about controversial subjects. He assigns
provocative essays such as Jonathan
Swift’s “A Modest Proposal” and
discusses controversial subjects such as
obscenity, cannibalism, and consensual
sex with children. At times, Cohen uses
vulgarities and profanity in the
classroom and places substantial
emphasis on topics of a sexual nature.
We do not decide whether the College
could punish speech of this nature if the
Policy were more precisely construed by
authoritative interpretive guidelines or if
the College were to adopt a clearer and
more precise policy. Rather, we hold that
the Policy is simply too vague as applied
to Cohen in this case. Cohen’s speech did
not fall within the core region of sexual
harassment as defined by the Policy.
Instead, officials of the College, on an
entirely ad hoc basis, applied the Policy’s
nebulous outer reaches to punish
teaching methods that Cohen had used
for many years. Regardless of what the
intentions of the officials of the College
may have been, the consequences of their
actions can best be described as a
legalistic ambush. Cohen was simply
without any notice that the Policy would
be applied in such a way as to punish his
110a

longstanding teaching style—a style
which, until the College imposed
punishment upon Cohen under the
Policy, had apparently been considered
pedagogically sound and within the
bounds of teaching methodology
permitted at the College.286
*834 Nevertheless, despite holding the policy
unconstitutionally broad, the Cohen court explicitly
found that the university officials were entitled to
qualified immunity in their implementation of the
policy. The court held: “The legal issues raised in this
case are not readily discernable and the appropriate
conclusion to each is not so clear that the officials
should have known that their actions violated Cohen’s
rights. ... We AFFIRM IN PART that aspect of the
district court’s judgment which held that the
individual officials were qualifiedly immune.”287
Further, while Cohen is similar to the present case in
several ways, it can also be distinguished. Cohen’s
language, conduct, and assignments were at least
tangentially related to the subject matter being
taught, and his pornography assignment, while in
some views inappropriate and perhaps ill-advised, had
an arguable teaching motive and some demonstrative
connection to the coursework. The same cannot be said
for the conduct and comments of Plaintiff. She

286

Id. at 972.

287

Id. at 973.

111a

repeatedly argues that her conduct and language are
part of her pedagogy but has failed to provide the
Court any summary judgment evidence which
demonstrates sufficient justification or connection
between the use of the vulgarities and unwelcome
prying into students’ sex lives with the teaching of
PK–3 education or supervising student-teachers at
elementary school campuses. Further, the court found
that Cohen was “ambushed” by the student grievance;
in the present case, Plaintiff was admonished for her
language and behavior at the Iberville school and
apparently refused to change, opting instead to simply
send others to work with student-teachers off campus.
Perhaps the most significant distinction between
Cohen and the present case is that LSU’s policies
include the objective standard “so offensive to a
reasonable person,” which was lacking in the Cohen
policy.
The Second Circuit in Vega, discussed above, also
addressed Vega’s constitutional challenge to the
college’s sexual harassment policy. Vega claimed that
the sexual harassment policy implemented against
him was unconstitutionally vague and overbroad. The
district court ruled that there was a factual issue as to
whether Vega was terminated pursuant to the policy
and denied summary judgment as to the
administrators.288 The district court distinguished the
Ninth Circuit’s decision in Cohen, finding that “the
policy in that case was ‘different and narrower’ than

288

Id. at 464.

112a

the one at issue here.”289
The Second Circuit reversed the district court and
held:
Vega’s academic freedom claim asserts
that the First Amendment prevented the
Defendants from disciplining him for this
conduct, and we have ruled above that,
whether or not that claim is valid, the
Defendants were objectively reasonable
in believing that it did not. Since the
Defendants have a qualified immunity
defense from damages liability for a First
Amendment academic freedom violation,
it does not matter whether they not only
thought that Vega’s conduct exceeded the
proper bounds of a teacher’s classroom
conduct but also thought that it violated
the College’s sexual harassment policy.
The conduct remains activity for which
they may terminate him without
incurring damages liability.290
This is not a case of dual motivation in
which a plaintiff contends that adverse
action was taken for an impermissible
*835 reason, e.g., exercising First
Amendment rights by providing

289

Id. at 465.

290

Id. at 468–69.

113a

information to a radio station, and the
defendant contends that the action was
taken for a different, permissible reason,
e.g., using obscene gestures to correct
students. See Mt. Healthy City School
District Board of Education v. Doyle, 429
U.S. 274, 281–83 & n. 1, 97 S.Ct. 568, 50
L.Ed.2d 471 ( 1977). In such
circumstances, if the evidence shows that
the impermissible reason was a
“motivating factor” of the adverse action,
the defendant is liable unless it can show
that it would have taken the adverse
action in the absence of the
impermissible reason. Id. at 287, 97 S.Ct.
568. But where, as here, there is only
one conduct of the discharged employee
that motivates the adverse action, and a
defendant has qualified immunity for
taking such action, the immunity is not
lost even if the defendant thinks that
this same conduct also provides an
additional reason for the adverse action.
To take an extreme example, if a teacher
ordered a female student to disrobe in
front of a class and was fired because the
school administrator reasonably
concluded that such conduct was not
related to a legitimate pedagogical
purpose, the administrator would not
lose qualified immunity just because of
an additional belief that the teacher’s
conduct also violated the school’s sexual
114a

harassment policy, no matter how
impermissibly vague or overbroad that
policy was.291
The Vega court ultimately followed Cohen in granting
qualified immunity to the college administrators:
In 1996, two years after Vega’s
termination, the Ninth Circuit held
qualified immunity available to college
administrators for disciplining a tenured
professor for violating a sexual
harassment policy that violated the First
Amendment. Cohen, 92 F.3d at 973. “The
legal issues raised in this case are not
readily discernable and the appropriate
conclusion to each is not so clear that the
officials should have known that their
actions violated [the professor’s] rights.”
Id.; see also diLeo v. Greenfield, 541 F.2d
949, 953 (2d Cir.1976) (regulation
permitting termination of teacher “for
other due and sufficient cause” not
unconstitutionally vague or overbroad as
applied to teacher who made comments
with sexual connotations to students).
Moreover, in view of the vulgarities that
Vega permitted to be expressed, no
reasonable jury could fail to find that the
Defendants would have terminated Vega
solely because they considered his
291

Id. at 469 (emphasis added).

115a

conduct beyond the bounds of proper
classroom performance, even if the
College had no sexual harassment
policy.292
[36]As set forth above, the Supreme Court requires
that a challenger establish that no set of
circumstances exists under which the policies would be
valid. The Court finds that Plaintiff has failed to carry
this heavy burden. First, the Court finds that the LSU
policies, w hen r ead together , ar e not
unconstitutionally broad or vague. While the Third
Circuit has held there must be something akin to a
“severe and pervasive” requirement for a sexual
harassment policy to be valid, the Fifth Circuit has not
explicitly done so in this context. Further, the Court
finds that, while the LSU policies could arguably have
been crafted better, the Court does not read the
language in LSU’s policies to be lacking an objective
standard akin to severe and pervasive. The phrase “so
offensive to a reasonable person” constitutes a
requirement that the conduct be objectively *836
severe, and the definitions and examples set forth in
the policy emphasize that the offending conduct must
be severe and pervasive as expressed by the words
“unwelcome,” “persistent,” “unwanted,” “deliberate,”
“repeated,” “intimidating,” and “demeaning.”293 As set
292

Id. at 469–70, 130 S.Ct. 1577 (emphasis added).

293

Sexual harassment is also defined as unwelcome verbal or
physical conduct of a sexual nature or gender-based conduct in
which the conduct has the purpose or effect of unreasonably
interfering with an individual’s work performance or creating an

116a

forth above, the Plaintiff must establish that there
exists no set of circumstances under which this policy
would be valid. Plaintiff has failed to carry this
burden, and summary judgment is appropriate in
favor of Defendants on the facial challenge to LSU’s
sexual harassment policies.
[37] [38] [39]Plaintiff has likewise failed to establish
that LSU’s sexual harassment policies are
unconstitutional as applied. “While rejection of a facial
challenge to a statute does not preclude all as-applied
attacks, surely it precludes one resting upon the same
asserted principle of law.”294 “In ascertaining the
constitutional validity of a restriction on speech, the
Court must (1) first assess whether the speech
deserves protection, (2) then determine the type of
forum involved, and (3) finally decide whether the

intimidating, hostile or offensive working environment. Examples
include unwelcome touching; persistent, unwanted
sexual/romantic attention or display of sexually oriented
materials; deliberate, repeated gender-based humiliation or
intimidation, and similar sexually oriented behavior of an
intimidating or demeaning nature. Rec. Doc. No. 1–2, p. 3.

Penry v. Lynaugh, 492 U.S. 302, 354, 109 S.Ct. 2934, 106
L.Ed.2d 256 (1989) (Scalia, J., dissenting). See also RNC v. FEC,
698 F.Supp.2d 150, 157 (D.D.C.2010) (“In general, a plaintiff
cannot successfully bring an as-applied challenge to a statutory
provision based on the same factual and legal arguments the
Supreme Court expressly considered when rejecting a facial
challenge to that provision. Doing so is not so much an as-applied
challenge as it is an argument for overruling a precedent.”),
summ. aff’d, RNC v. FEC, 561 U.S. 1040, 130 S.Ct. 3544, 177
L.Ed.2d 1119 (2010).
294

117a

proffered justification for the state’s restriction
satisfies the appropriate standard.”295 Because the
Court has already held that the challenged speech is
not protected by the First Amendment in the
classroom setting, Plaintiff’s as-applied challenge to
the policies as restricting protected speech fails.
Further, LSU’s proffered justification for the
prevention of sexual harassment and abusive conduct
towards its students by faculty members outweighs
any interest Plaintiff has in such speech. The Court
finds that the LSU policies are narrowly tailored to
promote a substantial government interest such that
the policies survive intermediate scrutiny.296
In support of her as-applied challenge, Plaintiff
primarily contends that even her own accusers did not
understand the context of Plaintiff’s profanity and
language to be sexual in nature. Plaintiff maintains
that the LSU policies’ lack of a severe and pervasive
requirement failed to put her on notice of what was
prohibited conduct. The Court rejected this argument
in addressing Plaintiff’s facial challenge, finding that
the LSU policies do contain an objective and subjective
standard that satisfies this test. Because Plaintiff’s asapplied challenge rests on the same principle of law as
her facial challenge, it is denied on the same grounds.
Netherland v. City of Zachary, La., 626 F.Supp.2d 603, 606
(M.D. La. 2009)(citing Cornelius v. NAACP Legal Defense and
Educ. Fund, Inc., 473 U.S. 788, 797, 105 S.Ct. 3439, 87 L.Ed.2d
567 (1985)).
295

296

See Horton v. City of Houston, 179 F.3d 188, 194 (5th

Cir.1999).

118a

[40]Alternatively, the Court finds that, even if LSU’s
anti-harassment policies *837 were facially
unconstitutional, the Defendants are entitled to
qualified immunity for the same reasons set forth by
the Cohen and Vega courts. Considering Plaintiff’s
conduct, LSU’s obligation to protect its students from
harassment and abuse, and LSU’s obligation to protect
its academic and professional reputation in the
community, the Court finds that the actions taken
against Plaintiff were objectively reasonable under the
facts of this case. The record in this case is replete
with examples of vulgar and demeaning language and
conduct by the Plaintiff. As succinctly stated in Vega,
in view of the vulgarities and conduct expressed by
Plaintiff, “no reasonable jury could fail to find that the
Defendants would have terminated [Plaintiff] solely
because they considered [her] conduct beyond the
bounds of proper classroom performance, even if [LSU]
had no sexual harassment policy.”297 Accordingly,
summary judgment is granted in favor of Defendants
on Plaintiff’s constitutional challenges to LSU’s
harassment policies.
3. Alleged Due Process Violations
Plaintiff claims that the investigation, hearing, and
termination deprived her of procedural and
substantive due process under the Fourteenth
Amendment to the Constitution.

297

Vega, 273 F.3d at 470.

119a

a. Parties’ Arguments
Plaintiff claims that her termination violated her
Fourteenth Amendment right to due process. She
contends that the “bare recital of steps LSU took”298
cannot demonstrate the “notice and opportunity to be
heard” to which she was entitled as a tenured
professor. Plaintiff argues that the charges against her
were “never clear, at any stage of the process”299
because of Reinoso’s classification of his “finding” as
sexual harassment and how decision-makers
thereafter relied on this “finding.” Plaintiff claims
that, when she met with Reinoso initially, she was
questioned but not given specific information
regarding the allegations against her or those making
the claims.300 Further, the HRM–EEO findings that
were later provided to her consisted only of conclusions
and “examples” of “allegations” that summarized the
complete findings.301 Thus, Plaintiff claims that the
lack of specificity regarding her alleged wrongs limited
her ability to properly defend herself.
As for the final findings, Plaintiff contends such
findings lacked any analysis explaining how she
violated LSU’s sexual harassment policies. Rather, she
contends there was only a recap of interviews, a
298

Rec. Doc. No. 35–1, p. 23.

299

Id.

300

SUMF ¶ 78.

301

Rec. Doc. No. 35–1, p. 31.

120a

summary, and a bottom-line set of conclusory
findings.302 Plaintiff claims that the one-sided nature
of who Reinoso chose to interview, failing to interview
Cancienne, Plaintiff’s non-complaining students, and
other witnesses, asking leading questions and
“perhaps browbeating witnesses,”303 mischaracterizing
testimony, and failing to connect the evidence to the
conclusions “is fatal to any notion of due process.”304
Subsequently, Plaintiff contends everything in
Reinoso’s report was deemed a “finding” of sexual
harassment and relied upon in that fashion going
forward. Dean Andrew recited a great deal of Reinoso’s
report in seeking PS–104 proceedings, the faculty
committee based its decisions on it as well, and
Alexander admitted that he *838 also relied on the
report over the committee recommendation. Thus,
Plaintiff claims these flawed materials and findings
form the basis of the termination recommendation to
the Board.
Plaintiff claims none of this information was
communicated to her during the investigation, and
even once she received the full report, she was forced
to guess which allegations implicated sexual
harassment and which had been disregarded,
depriving her of any opportunity to address these

302

Id., citing Rec. Doc. No. 32–2, pp. 80–92.

303

Id., citing Rec. Doc. No. 36–1, ¶ 76.

304

Id.

121a

distinctions at any stage before any decision-maker.
Plaintiff argues the fact that an explanation from
Reinoso only came once he was deposed, many months
after Plaintiff’s termination, negated her ability to
present her side as to specific charges lodged against
her.
While Plaintiff acknowledges she received a hearing
before the faculty committee and was permitted to
appeal, she claims these steps cannot cure a due
process violation because “an adjudication ... tainted
by bias cannot be constitutionally redeemed by review
in an unbiased tribunal.”305 Plaintiff claims that bias
is demonstrated here because Reinoso failed to
particularize what conduct constituted sexual
harassment and affected all subsequent levels of the
decision-making process. Plaintiff further claims these
“inherent deficiencies” are critical and do not
constitute the notice and opportunity to be heard
guaranteed by the Due Process Clause.306
Defendants claim Plaintiff was afforded due process,
and summary judgment should be granted in their
favor on this claim. Defendants note that Plaintiff has
acknowledged that she: (1) was notified of the
allegations against her, (2) participated in pretrial
meetings, (3) was afforded an evidentiary hearing
Rec. Doc. No. 35–1, p. 32, quoting Clements v. Airport
Authority of Washoe County, 69 F.3d 321, 333 (9th Cir.1995). The
Court notes that the Clements case is non-binding and factually
305

distinguishable from the present case.
306

Id.

122a

before the faculty committee, and (4) was permitted to
appeal the committee’s findings and recommendations.
Specifically, Defendants claim Plaintiff acknowledges
the fact that LSU received complaints about her lack
of professionalism during her site visit to Iberville
Parish schools.307 Further, Plaintiff acknowledges that
her supervisor Dr. Cheek informed her of the initial
complaint from Cancienne and requested that she
address the complaint, which she did by e-mail.308
Despite notice of this complaint, and after Plaintiff’s
ostensible “apology” e-mail to Cancienne, Defendants
contend Plaintiff continued to make inappropriate and
offensive remarks to the Iberville Parish staff. Rather
than modify her behavior, Defendants contend
Plaintiff unilaterally decided, without consultation or
input from her supervisor, to send other supervisors
for education students in Iberville Parish.
As to notice, Defendants refer to the packet received by
Plaintiff advising her of the allegations, and Plaintiff’s
written response thereto, which referenced
inappropriate or unwelcome language used in her
teaching.309 Plaintiff’s response admits that she was
given a “set of complaints” although Plaintiff
characterized these complaints as “accusations and
allegations that amount to hearsay.”310 Plaintiff’s
307

See Rec. Doc. No. 36–1, ¶¶ 16–18.

308

Id., ¶ 24.

309

Rec. Doc. No. 36–2, pp. 68–72.

310

Id., p. 69.

123a

response further consists of denials of specific
incidents brought to her attention, specifically a
student’s right to confidentiality regarding the
student’s disability status; telling students not to get
pregnant while in the *839 program; and regarding
the sexual orientation of women who wear brown
pants.311
Further, Defendants note the undisputed fact that the
faculty members of the PS–104 committee
unanimously determined that Plaintiff violated PS–73
and PS–95 through her use of profanity, poorly worded
jokes, and sometimes sexually explicit jokes.312 The
committee found that Plaintiff’s behavior, both on and
off campus, created a “hostile learning
environment.”313 The Defendants maintain that the
committee hearing transcript establishes that
numerous witnesses testified, and Plaintiff had the
opportunity to question those witnesses and present
witnesses on her own behalf.314
Defendants contend that Plaintiff’s unwillingness to
modify her offensive behavior, even after she had been
notified and asked to address it, is sufficient to
establish Plaintiff’s notice of the allegations being
brought against her, particularly since the nature of
311

Id., pp. 69–72.

312

Rec. Doc. No. 36–2, pp. 74–76.

313

Id., p. 75.

314

Rec. Doc. No. 36–3.

124a

the complaints by Iberville Parish is consistent with
the complaints LSU received from other sources
regarding Plaintiff’s conduct. Further, Defendants
maintain this series of events establishes that Plaintiff
engaged in a pattern of conduct that was addressed
and questioned by her supervisor, but she was
unwilling to change.
Defendants also argue that Plaintiff’s criticism of who
investigators chose to interview or not does not
amount to a denial of due process. Plaintiff’s
disagreement with the manner in which the
investigation was carried out does not constitute a due
process violation but only further illustrates Plaintiff’s
inability to get along with others and modify her
behavior professionally. Defendants also take issue
with Plaintiff’s challenge to having her teaching duties
suspended for the Spring 2014 semester when she
unilaterally, without informing her supervisors,
removed herself from teaching duties when her
behavior was challenged. Defendants maintain that
due process was not required for such an action
because they were within the Provost’s and Dean
Andrew’s discretion, and LSU has a responsibility to
protect its students and the PK–3 program.
Thus, Defendants contend they have established by
summary judgment evidence that Plaintiff was
afforded due process. Plaintiff’s argument that she did
not learn the specifics of the charges until Reinoso was
deposed is contradicted by the plethora of documents
that she has attached to her pleadings. It is
undisputed that Dr. Cheek made Plaintiff aware of the
125a

allegations, allowed her a response, and Plaintiff was
excluded from several school campuses “long before the
PS–104 hearing.”315 Additionally, Reinoso, Curry, and
Dean Andrew all testified at the committee hearing,
and Plaintiff was permitted to question each of them.
When Alexander rejected the committee’s
recommendation and recommended Plaintiff’s
termination to the Board, Plaintiff was permitted to
appeal to Alexander and appear before the Board
before the final decision was made.
b. Procedural Due Process
[41] [42] [43]The United States Constitution provides
that, “No State shall ... deprive any person of life,
liberty, or property, without due process of law.” U.S.
Const. amend. XIV, § 1. Where a tenured public
university faculty member is terminated, due process
requires both notice and an opportunity to be heard.316
The type of *840 hearing necessary—the process
due—is a function of the context of the individual
case.317 Due Process is not a rigid and fixed concept,
but, rather, it is “flexible and calls for such procedural

315

Rec. Doc. No. 46, p. 8, citing Rec. Doc. No. 35–6, Ex. 5, pp. 81 &
84.

Jones v. Louisiana Bd. of Sup’rs of University of Louisiana
Systems, 809 F.3d 231, 236 (5th Cir. 2015)(citing Texas Faculty
Association v. University of Texas at Dallas, 946 F.2d 379, 384
(5th Cir.1991); Russell v. Harrison, 736 F.2d 283, 289 (5th
316

Cir.1984)).
317

Id.

126a

protections as the particular situation demands.”318 To
determine the requisite process, a court must analyze
the “interests at stake in a given case.”319 Mathews
provides the three distinct interests to consider:
First, the private interest that will be
affected by the official action; second, the
risk of an erroneous deprivation of such
interest through the procedures used,
and the probable value, if any, of
additional or substitute procedural
safeguards; and finally, the
Government’s interest, including the
function involved and the fiscal and
administrative burdens that the
additional or substitute procedural
requirement would entail.320
[44] [45]The Court finds that Plaintiff has failed to
present summary judgment evidence that there is a
material issue of fact as to whether she was denied
Due Process in the investigation and hearing that
resulted in her termination from LSU. Considering the
record before the Court, the Court finds that Plaintiff

318

Morrissey v. Brewer, 408 U.S. 471, 481, 92 S.Ct. 2593, 33

L.Ed.2d 484 (1972).

Babin v. Breaux, 587 Fed.Appx. 105, 110 (5th Cir. 2014) (per
curiam) (citing Mathews v. Eldridge, 424 U.S. 319, 334–35, 96
S.Ct. 893, 47 L.Ed.2d 18 (1976)).
319

Jones, 809 F.3d at 236, quoting Mathews, 424 U.S. at 335, 96
S.Ct. 893.

320

127a

was afforded both procedural and substantive due
process leading up to her termination. The record
establishes that Plaintiff was given notice of the
allegations against her, and the Court finds no lack of
specificity, especially in light of Plaintiff’s responses.
Further, at every step, Plaintiff was afforded an
opportunity to respond to the allegations brought
against her. At the faculty committee hearing,
Plaintiff’s position was considered, and the committee
determined that she violated the sexual harassment
policies of LSU. There is simply no summary judgment
evidence that Plaintiff was not afforded proper notice
and the opportunity to be heard at a meaningful time
and in a meaningful manner, including appealing
Alexander’s recommendation to the Board.321
c. Substantive Due Process
[46] [47] [48]“Public officials violate substantive due
process rights if they act arbitrarily or capriciously.”322
A public employer’s decision to terminate a tenured
employee’s property interest in continued employment
is arbitrary or capricious if the decision “so lacked a

321

At best, one might argue that reasonable minds could disagree
on the propriety of Plaintiff’s termination; however, that is
insufficient to defeat a public official’s qualified immunity. See

State of Tex. By and Through Bd. of Regents of University of
Texas System v. Walker, 142 F.3d 813, 819 (5th Cir. 1998)(citing
Malley v. Briggs, 475 U.S. 335, 341, 106 S.Ct. 1092, 89 L.Ed.2d

271 (1986)).
322

Finch v. Fort Bend Indep. Sch. Dist., 333 F.3d 555, 562–63 (5th

Cir.2003).

128a

basis in fact” that it may be said to have been made
“without professional judgment.”323 The terminated
employee “must show that the decision was ‘made
without a rational connection between the known facts
and the decision or between the found facts and the
evidence.’ ”324
*841 [49] [50]The standard for establishing a
substantive due process violation is “demanding”325
because “a federal court is generally not the
appropriate forum in which to review the multitude of
personnel decisions that are made daily by public
agencies.”326 “The standard may be even more
demanding in the context of higher education
personnel decisions because of repeated refusals by the
Supreme Court, as well as this court, to ‘use the
Fourteenth Amendment as an excuse to regulate the
internal affairs of public universities.’”327 Nevertheless,
the Fifth Circuit has “also observed that ‘[t]his

Mills v. Garcia, 650 Fed.Appx. 873, 878 (5th Cir. 2016)(quoting
Texas v. Walker, 142 F.3d 813, 819 (5th Cir. 1998)(internal
323

quotation marks omitted).

Id. (quoting Lewis v. Univ. of Tex. Med. Branch, 665 F.3d 625,
631 (5th Cir. 2011) (per curiam) (quoting Meditrust Fin. Servs.
Corp. v. Sterling Chems., Inc., 168 F.3d 211, 215 (5th Cir. 1999))).
324

325

Id. (quoting Spuler v. Pickar, 958 F.2d 103, 107 (5th Cir. 1992)).

Id. (quoting Honore v. Douglas, 833 F.2d 565, 569 (5th Cir.
1987) (citing Bishop v. Wood, 426 U.S. 341, 96 S.Ct. 2074, 48
L.Ed.2d 684 (1976)))(internal quotation marks omitted).
326

327

Jones, 809 F.3d at 240, quoting Tex. Faculty, 946 F.2d at 385.

129a

measure of judicial restraint ... does not require
slavish deference to a university’s arbitrary
deprivation of a vested property right.’ ”328
[51]Plaintiff’s substantive due process claim of bias is
also unsupported by any summary judgment evidence.
Plaintiff claims that Reinoso showed bias because he
did not interview persons she believed should be
interviewed. This does not establish bias for purposes
of due process. The United States Supreme Court has
held that an employer is entitled to limit his
investigation and make credibility determinations in
employment situations.329
The Fifth Circuit has held that, “the members of an
adjudicative body have been found to be
unconstitutionally biased in three circumstances:
(1) where the decision maker has a direct
personal, substantial, and pecuniary
interest in the outcome of the case; (2)
where an adjudicator has been the target
of personal abuse or criticism from the
party before him; and (3) when a judicial
or quasi-judicial decision maker has the
328

Id. (collecting cases).

See Waters v. Churchill, 511 U.S. 661, 680, 114 S.Ct. 1878, 128
L.Ed.2d 686 (1994)(holding that a government employer may
make credibility determinations and that its failure to interview
additional witnesses who would have supported the plaintiff’s
claim was immaterial as “[m]anagement can only spend so much
of their time on any one employment decision”).

329

130a

dual role of investigating and
adjudicating disputes and complaints.”330
Plaintiff has failed to present summary judgment
evidence satisfying any of the above circumstances of
bias. While Reinoso did investigate the allegations
against Plaintiff and submitted findings, the faculty
committee was not bound by these findings, and there
is no evidence that Reinoso had any hand in the final
decision reached by the committee or Alexander’s
recommendation to the Board.331 The record is *842
devoid of evidence of improper communications or
predetermined conclusions by investigators. Plaintiff

Klingler v. University of Southern Mississippi, USM, 612
Fed.Appx. 222, 231 (5th Cir. 2015)(quoting Valley v. Rapides
Parish Sch. Bd., 118 F.3d 1047, 1052 (5th Cir.1997) (citation
omitted)).
330

331

Even if Reinoso was considered an “adjudicator,” Plaintiff has
failed to overcome “strong presumptions of (1) the adjudicators’
honesty and integrity and (2) that the decision was made in the
public interest.” Id., citing Valley, 118 F.3d at 1052–53. Plaintiff
has offered no evidence that any adjudicator’s mind was
“irrevocably closed” prior to the adjudication. Id., quoting Valley,
118 F.3d at 1052. The Fifth Circuit also stated: “We have further
recognized in academic contexts that “a due process hearing is not
rendered constitutionally inadequate solely because university
administrators are asked to review their own decisions.” Id., citing
Tex. Faculty Ass’n v. Univ. of Tex. at Dall., 946 F.2d 379, 388 (5th
Cir.1991); see also Hortonville Joint Sch. Dist. No. 1 v. Hortonville
Educ. Ass’n, 426 U.S. 482, 497, 96 S.Ct. 2308, 49 L.Ed.2d 1 (1976)
(“A showing that the Board was ‘involved’ in the events preceding
this decision ... is not enough to overcome the presumption of
honesty and integrity in policy makers with decisionmaking
power.”).

131a

has offered no evidence of bias other than a decision
that runs contrary to her subjective belief, which is not
summary judgment evidence.
There is likewise no evidence that the decision to
terminate Plaintiff was arbitrary or capricious because
Plaintiff has failed to present evidence establishing
that her termination lacked a basis in fact or was
made without professional judgment. To the contrary,
there is abundant evidence in the record, discussed at
length above, establishing that Plaintiff engaged in
conduct and used speech that violated LSU’s antiharassment policies, and the faculty committee’s
conclusion confirms this.
On the Plaintiff’s claims of procedural and substantive
due process violations, the Court is guided by the Fifth
Circuit’s decision in Pastorek v. Trail,332 a case
involving the termination of a tenured professor at
LSU’s Medical School (“LSUMS”). The plaintiff
specialized in the treatment of high-risk pregnancies
and performed consultations on patients referred by a
local obstetrician.333 The referring physician came
under scrutiny and was subjected to investigatory
hearings due to allegations that he was harming
patients by over-utilizing high-risk procedures. Based
on this development, the Chair of the ObstetricsGynecology department at the medical school
encouraged the plaintiff not to participate in and

332

248 F.3d 1140, 2001 WL 85921 (5th Cir. 2001).

333

Id. at *1.

132a

support the referring physician’s practices.334 When
the plaintiff refused, the Chair sent a formal letter of
complaint and recommended the commencement of
termination proceedings to the LSUMS’s Chancellor,
Dr. Mervin L. Trail (“Trail”).335
The plaintiff was informed of the charges and provided
a copy of the Chair’s complaint. The plaintiff’s
obstetrics privileges were suspended, but he was
allowed to continue teaching and practicing gynecology
pending an investigation and hearing. A committee
was appointed to review the charges against the
plaintiff, and the committee sought independent
review from another physician.336 This review resulted
in a finding that the plaintiff engaged in “very
questionable obstetrical practices.”337 In response to
this conclusion, the committee recommended further
investigation, and Dr. Trail sought independent review
by the American College of Obstetricians and
Gynecology (“ACOG”). The ACOG found that sixteen
of the nineteen consultations that it reviewed were
unsatisfactory due to inadequate documentation, and
two clearly fell below the standard of care required by
a physician.338

334

Id.

335

Id.

336

Id.

337

Id.

338

Id.

133a

Following this conclusion, Trail terminated the
plaintiff’s employment. The plaintiff appealed this
decision to the Dean of LSUMS, the LSUMS Standing
Appeals Committee, and the President of LSU. The
plaintiff lost each appeal and claimed that all of the
hearings were biased against him. The LSU Board of
Supervisors ultimately ratified the decision to
terminate the plaintiff.339 The plaintiff sued under
Section 1983 and alleged that his procedural *843 and
substantive due process rights were violated. The
district court granted summary judgment in favor of
LSU and the LSU defendants, and the plaintiff
appealed.340
On appeal, the plaintiff argued that the termination
proceedings did not afford him due process, specifically
because he claimed the defendants did not give him
notice of the “actual reasons” for his termination, and
the termination hearing was biased.341 The Fifth
Circuit rejected these arguments and held as follows:
Appellant alleges that he was denied due
process because he did not have an
opportunity to respond to “the reasons
which actually motivated Dr. Trail” to
terminate him. In Levitt v. University of
Texas at El Paso, this court articulated

339

Id.

340

Id.

341

Id. at *4.

134a

the due process protections to which a
tenured professor is entitled. 759 F.2d
1224, 1228 (5th Cir.1985). Included
among these protections is the professor’s
right to “be advised of the cause for his
termination in sufficient detail so as to
enable him to show any error that may
exist.” Id. This notice requirement is
satisfied when a professor receives
“notice of the charges against him, an
explanation of the employer’s evidence,
and an opportunity to present his side of
the story.” Cleveland Bd. of Educ. v.
Loudermill, 470 U.S. 532, 546, 105 S.Ct.
1487, 1495 [84 L.Ed.2d 494] (1985).
Prior to terminating appellant, Trail sent a letter
informing him of the decision to institute termination
proceedings. The letter informed appellant of the
charges and requested a written response. These facts
are not disputed. This procedure gave appellant notice
of the charges and an opportunity to tell “his side of
the story.” Therefore, Appellant received the notice
and opportunity to be heard that due process requires.
Appellant also argues that the hearing he received was
biased because a lawyer participated as an advisor
both in drafting the initial charge letter and in the
subsequent hearings. Before being terminated, a
tenured professor is entitled to a hearing before a
tribunal that possesses “an apparent impartiality
toward the charges.” Levitt, 759 F.2d at 1228.
However, partiality is not established by the fact that
someone participated in the hearing and in the initial
135a

investigation. See Duke v. North Texas State
University, 469 F.2d 829, 834 (5th Cir.1972). For
example, in Duke v. North Texas State University, this
Court rejected plaintiff’s argument that the hearing
was biased simply because some of those who sat on
the panel also participated in the charging phase of the
termination proceedings. See id. Similarly, appellant
argues that the participation of an attorney in the
charging and hearing phases of the termination
proceedings made the hearing biased against him. Just
as in Duke, such participation does not constitute
partiality, particularly where, as here, the allegedly
partial individual did not participate in the actual
decision to terminate. Summary judgment against
appellant on his procedural due process claims was
appropriate.342
The plaintiff also claimed that his substantive due
process rights were denied because he was terminated
without cause. The Fifth Circuit noted that, to prevail
on such a claim, the plaintiff had to show that he had
a property interest in his employment and that his
termination was arbitrary or capricious.343 Further,
the court stated: “A public employer’s termination
*844 of an employee does not violate substantive due
process unless the determination ‘so lacked a basis in
fact that their decision to terminate him was arbitrary
or capricious, or taken without professional

342

Id.

Id., citing State of Texas v. Walker, 142 F.3d 813, 819 (5th
Cir.1998).
343

136a

judgment.’344 The fact that reasonable minds could
disagree on the propriety of the decision is insufficient
to defeat a public official’s qualified immunity.”345 The
Fifth Circuit rejected the substantive due process
challenge, finding as follows:
In this case, Dr. Gary Cunningham, a
physician not associated with LSUMS,
determined that appellant engaged in
“questionable obstetrical practices.” An
independent review by the ACOG
resulted in a finding that, in two cases,
appellant’s care fell below the standard
required of a physician. The ACOG also
found that appellant’s performance was
unsatisfactory in another sixteen cases
because of inadequate medical record
documentation. Appellant was provided
a hearing, an opportunity to defend
himself, and several appeals. Appellant
may not agree with Dr. Cunningham’s or
the ACOG’s findings, but it cannot be
said that the decision to terminate him
lacked a basis in fact. Further, the
extensive proceedings afforded appellant
show that the decision to terminate him
was not made arbitrarily or capriciously.
Therefore, neither Trail nor Elkins
violated appellant’s substantive due

344

Id. at *5, quoting Walker, 142 F.3d at 819.

345

Id., citing Walker, 142 F.3d at 819.

137a

process rights and summary judgment in
their favor on this issue was
appropriate.346
No different result is mandated in the present case.
The Court is mindful of the Fifth Circuit’s decision in
Honore v. Douglas, wherein the Court found
procedural adequacy but reversed the district court’s
grant of summary judgment on the substantive due
process claim where the committee “unanimously
recommended tenure,” but the university president
rejected such a recommendation.347 Although in the
present case, President Alexander rejected the faculty
committee’s recommendation to retain and censure
Plaintiff rather than terminate, the faculty committee
was also unanimous in finding that she had violated
both of LSU’s sexual harassment policies. Further,
President Alexander was within his rights to reject the
committee’s recommendation and present his own
recommendation to the Board, as long as such a
recommendation was not arbitrary or capricious.
Another important distinction is that, in Honore,
unlike the present case, the plaintiff presented
sufficient evidence to show that his speech criticizing
a graduate school’s admission policy was a matter of
public concern.348 In light of the nature of the charges

346

Id.

347

833 F.2d 565, 567–70 (5th Cir. 1987).

348

Id. at 567, 569.

138a

brought against Plaintiff, the committee’s findings,
and the fact that Plaintiff had an opportunity to
address the Board before it decided to adopt
Alexander’s recommendation, the Court cannot find
that the decision to terminate Plaintiff was arbitrary
and capricious, and the Court finds that the
circumstances are factually distinct from those in

Honore.

Accordingly, Defendants are entitled to summary
judgment on Plaintiff’s due process claims.
III. CONCLUSION
For the reasons set forth above, Defendants’ Motion for
Summary Judgment349 is GRANTED, and Plaintiff’s
Motion for Summary Judgment350 is DENIED. *845
Plaintiff’s claims are dismissed with prejudice.

Judgment shall be entered accordingly.
IT IS SO ORDERED.

349

Rec. Doc. No. 30.

350

Rec. Doc. No. 35.

139a

APPENDIX C
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 18-30148
TERESA BUCHANAN,
Plaintiff - Appellant
v.
F. KING ALEXANDER; DAMON ANDREW; A. G.
MONACO; GASTON REINOSO,
Defendants - Appellees
Appeal from the United States District Court
for the Middle District of Louisiana
ON PETITION FOR REHEARING EN BANC
(Opinion ______, 5 Cir.,______, ______ F.3d______)
Before WIENER, SOUTHWICK, and COSTA, Circuit
Judges.
PER CURIAM:
140a

(/)

Treating the Petition for Rehearing En Banc as
a Petition for Panel Rehearing, the Petition for
Panel Rehearing is DENIED. No member of the
panel nor judge in regular active service of the
court having requested that the court be polled
on Rehearing En Banc (FED. R. APP. P. and 5TH
CIR. R. 35), the Petition for Rehearing En Banc
is DENIED.

( )

Treating the Petition for Rehearing En Banc as
a Petition for Panel Rehearing, the Petition for
Panel Rehearing is DENIED. The court having
been polled at the request of the one of the
members of the court and a majority of the
judges who are in regular active service and not
disqualified not having voted in favor (FED. R.
APP. P. and 5TH CIR. R. 35), the Petition for
Rehearing En Banc is DENIED.
ENTERED FOR THE COURT:
/s/ Jacques L. Wiener, Jr.
UNITED STATES CIRCUIT JUDGE

* Judge Duncan did not participate in the consideration of the
rehearing en banc.

141a

UNITED STATES COURT OF APPEALS
FIFTH CIRCUIT
Office of the Clerk
April 30, 2019
MEMORANDUM TO COUNSEL OR PARTIES
LISTED BELOW:
No. 18-30148 Teresa Buchanan v. F. Alexander, et al
USDC No. 3:16-CV-41
Enclosed is an order entered in this case.
Sincerely,
LYLE W. CAYCE, Clerk
By: /s/
Lisa E. Ferrara, Deputy Clerk
504-310-7675
Mr. Travis Christopher Barham
Mr. Robert Corn-Revere
Mr. Nicholas J. Enoch
Mr. Niles Stefan Illich
Mr. Carlton Jones III
Mr. Ronald London
Mrs. Sheri Marcus Morris
Ms. Lisa Beth Zycherman
142a

APPENDIX D
Sexual Harassment
PS-73
PURPOSE
To state the University policy and responsibility
regarding sexual harassment as related to its
employees and to its students who believe they have
been harassed by an employee.
POLICY
The University reaffirms and emphasizes its
commitment to provide a workplace free from sexual
harassment and to provide a means to remedy sexual
harassment that employees may have experienced.
The intent of this policy is to express the University's
commitment and responsibility to protect its
employees and students from sexual harassment and
from retaliation for participating in a sexual
harassment complaint. It is not intended to infringe
upon constitutionally guaranteed rights nor upon
academic freedom. In considering allegations of sexual
harassment, the University must be concerned with
the rights of both the complainant and the accused.
All complaints of sexual harassment must be reported
to the Office of Human Resource Management. All
proven cases of sexual harassment shall result in
143a

appropriate disciplinary or other corrective action. The
severity of the disciplinary action shall be consistent
with the seriousness of the act of sexual harassment.
Additionally, under appropriate circumstances, the
University may take action to protect its employees
and students from sexual harassment by individuals
who are not employees of the University.
DEFINITIONS

Sexual harassment: is a form of unlawful sexual

discrimination. It is defined as speech and/or conduct
of a sexually discriminatory nature, which was neither
welcomed nor encouraged, which would be so offensive
to a reasonable person as to create an abusive working
or learning environment and/or impair his/her
performance on the job or in the classroom.
Sexual harassment may involve a situation where
unwelcome sexual advances, requests for sexual
favors, and other verbal or physical conduct of a sexual
nature are made either explicitly or implicitly a term
or condition of an individual's employment and
submission to or rejection of such conduct by an
individual results in a tangible and adverse
employment action. Examples of such potential
relationships include supervisors and subordinates,
employers and job applicants and other relationships
in which one person has the potential to reward or
penalize another in regard to his or her employment
role.
Sexual harassment is also defined as unwelcome
144a

verbal or physical conduct of a sexual nature or
gender-based conduct in which the conduct has the
purpose or effect of unreasonably interfering with an
individual's work performance or creating an
intimidating, hostile or offensive working
environment. Examples include unwelcome touching;
persistent, unwanted sexual/romantic attention or
display of sexually oriented materials; deliberate,
repeated gender-based humiliation or intimidation,
and similar sexually oriented behavior of an
intimidating or demeaning nature.

Employees: as used herein are defined as all persons
having any employment relationship with the
University.
PROCEDURES
A. Reporting
Any member of the University community who
believes that he or she has been subjected to sexual
harassment has a right and an obligation to report it
to any University official, supervisor, or the Office of
Human Resource Management. No student or
employee is required to report or make a complaint of
sexual harassment to the person who is engaging in
the problematic conduct.
To insure that situations that may involve sexual
harassment are handled appropriately, any University
administrator or supervisor who is a recipient of a
complaint or report of possible violation of the policy
145a

will immediately notify the Office of Human Resource
Management for advice and assistance on how to
respond to the complaint. The Office of Human
Resource Management (Room 304, Thomas Boyd Hall,
phone, 578-8200) can provide further information
regarding filing procedures for complaints and
regarding investigations of complaints. The Office of
the Dean of Students is responsible for addressing
sexual harassment complaints involving student on
student harassment.
B. Complaint Options
Because sexual harassment may involve a wide range
of sexually oriented behaviors and is, in part, a
function of the way in which such behaviors are
perceived, the way in which a given incident is
appropriately treated depends on its effect upon the
recipient as well as upon the specific behavior itself.
For example, simply informing the initiator through
verbal or written communication that the behavior is
unwelcome and should cease may be sufficient to end
it. On the other hand, the situation may be such or the
behavior may be so extreme that the recipient is
unwilling or unable to deal with it in this way.
To help the recipient determine how best to remedy
sexual harassment, as well as to insure that
appropriate measures are taken when warranted,
anyone who believes himself or herself to have been
subjected to sexual harassment may make use of both
informal and formal resolution procedures.

146a

Informal Procedure - Under the informal procedure, a

complaint may be filed with the Office of Human
Resource Management or any academic or
administrative official of the University (i.e., vice
chancellor, dean, chairperson or director). Use of the
informal procedure is optional and a person can chose
to bypass, discontinue, or initiate a formal complaint
at any time during the informal process. The
complainant, the person receiving the informal
complaint, and the Office of Human Resource
Management will jointly determine how best to handle
the complaint. The information reported to the
University related to a complaint will be treated as
confidential as possible with only those with a need to
know being informed of the complaint.

Formal Procedure - Under the formal procedure, the

complainant should file the complaint with the Office
of Human Resource Management. A formal
investigation of the complaint will be conducted to
determine if sufficient evidence exists to conclude that
a violation of the University’s sexual harassment
policy has occurred.

Both procedures will operate under the general
principles of fairness and confidentiality and must
attempt to ensure that a charge of sexual harassment
is carefully reviewed to determine whether the
conditions in the preceding definition have been met
and to further provide that the rights of both the
complainant and the accused are protected. No
University disciplinary action for sexual harassment
shall be imposed on a University employee except in
147a

accordance with the provisions of this policy
statement.
Additionally, the individuals involved in the complaint
will be notified about its resolution.
Retaliation
Employees, students, witnesses, and/or other
participants involved in a sexual harassment
complaint or investigation are protected from
retaliation of any form. Any employee violating the
prohibition against retaliation may be subject to
disciplinary action up to and including termination.

Other relevant policies and procedures:
Refer to PS-95 for the University's policy on sexual
harassment of students by other students.

148a

APPENDIX E
Sexual Harassment of Students
PS-95
PURPOSE
To state the University position, policy, and
responsibility regarding sexual harassment as related
to its students.
POLICY
The University reaffirms and emphasizes commitment
to provide an educational and work environment free
from sexual harassment and to provide a means to
remedy sexual harassment that students may have
experienced.
The intent of this policy is to express the University's
commitment and responsibility to protect its students
from sexual harassment. It is not intended to infringe
upon constitutionally guaranteed rights nor upon
academic freedom. In considering allegations of sexual
harassment, the University must be concerned with
the rights of both the accused and the accuser.
All proven cases of sexual harassment shall result in
appropriate disciplinary action. The severity of the
disciplinary action shall be consistent with the
seriousness of the act of sexual harassment.
Additionally, under appropriate circumstances, the
149a

University may take action to protect its students from
sexual harassment by individuals who are not
students of the University.
DEFINITIONS

Sexual harassment: is a form of unlawful sexual

discrimination. It is defined as unwelcome verbal,
visual, or physical behavior of a sexual nature. It can
also include unwelcome gender-based conduct. A man
or a woman may be the victim of sexual harassment or
the initiator of sexual harassment. The victim does not
have to be of the opposite sex of the initiator. Sexual
harassment includes both "quid pro quo" and "hostile
environment" unlawful discrimination. Both are
defined below.

Quid pro quo sexual harassment: involves a situation
where unwelcome sexual advances, requests for sexual
favors, and other verbal, visual, or physical conduct of
a sexual nature are PS-95 Sexual Harassment of
Students made either explicitly or implicitly a term or
condition of an individual's academic achievement,
employment, or position within the group or team and
submission to or rejection of such conduct by an
individual is used as the basis for employment
decisions affecting the individual's academic,
employment, or membership standing. In these
situations, the student is forced to choose between
submission to sexual demands or the loss of impartial
treatment and evaluation as a student, employer, or
member of the group. Quid pro quo sexual harassment
typically involves an authority relationship in which
150a

the recipient is vulnerable with respect to academic
advancement or standing, employment or membership
so that objection to the demands may have negative
consequences.
Examples of such potential relationships include
student and teacher, teaching assistant, lab assistant,
grading assistant, advisor, counselor, coach,
administrator, or tutor and other relationships in
which one person has the potential to reward or
penalize another in regard to his or her student role.
Examples may also include supervisors and
subordinates, employers and job applicants, active
member and pledge, organization officer and member,
team leader or captain, and team member, etc.

Hostile environment sexual harassment: is unwelcome
verbal or physical conduct of a sexual nature or
gender-based conduct in which the conduct has the
purpose or effect of unreasonably interfering with an
individual's academic, work, team or organization
performance or creating an intimidating, hostile or
offensive working environment. Hostile environment
sexual harassment may exist even in the absence of
quid pro quo sexual harassment or the absence of an
authority relationship.
Examples include unwelcome touching or suggestive
comments, offensive language or display of sexually
oriented materials, obscene gestures, and similar
sexually oriented behavior of an intimidating or
demeaning nature.

151a

Employee: is defined as any person having an
employment relationship with the University.

Student: is defined as any person enrolled in a credit
or noncredit instructional program offered by any unit
of the University.
PROCEDURES
Because sexual harassment may involve a wide range
of sexually oriented behaviors and is, in part, a
function of the way in which such behaviors are
perceived, the way in which a given incident is
appropriately treated depends on its effect upon the
recipient as well as upon the specific behavior itself.
For example, simply informing the initiator through
verbal or written communication that the behavior is
unwelcome and should cease may be sufficient to end
it. On the other hand, the situation may be such or the
behavior may be so extreme that the recipient is
unwilling or unable to deal with it in this way.
To help the recipient determine how best to remedy
sexual harassment, as well as to insure that
appropriate measures are taken when warranted,
anyone who believes himself or herself to have been
subjected to sexual harassment may make use of both
informal and formal resolution procedures. Both sets
of procedures will operate under the general principals
of fairness and confidentiality and must provide that
a charge of sexual harassment is carefully reviewed to
determine whether the conditions in the preceding
definition have been met and to further provide that
152a

the rights of both the accuser and the accused are
protected. No University disciplinary action for sexual
harassment shall be imposed on a University student
except in accordance with the provisions of this policy
statement and Code of Student Conduct.
A. Informal Procedures
A student who believes he/she has been subjected to
sexual harassment or who believes a fellow student, a
member of the faculty or staff, or an individual
working on or visiting the Campus may be sexually
harassing him or her may bring it to the attention of
an administrative officer responsible for the unit in
which the harassment occurred or the alleged harasser
works.
Examples of the appropriate administrative officer,
depending upon where the alleged harassment
occurred, are the faculty member responsible for the
class, the department chairperson or the dean of the
college, a residence hall staff member, the Director of
Greek Affairs, the head coach or the Athletic Director,
the Director of University bands, the employee's
supervisor, the Director of Recreational Sports, the
organization's advisor, etc.
The student may prefer, however, to discuss the
matter initially with the University personnel
designated to assist in the resolution of sexual
harassment matters. The designated individual for
alleged sexual harassment by a University employee
(including a member of the faculty or academic staff)
153a

is the Assistant Director of Employee Relations in the
Office of Human Resource Management. The
designated individual when the alleged sexual
harasser is a fellow student is the Dean of Students or
his or her designee in the Office of the Dean of
Students. When the designated office receives a
complaint, the unit head or supervisor of the person
against whom the complaint is made if the person is
an employee of the University, will be immediately
notified. If appropriate, that unit head or supervisor
should immediately suspend any authority
relationship between the complainant and the accused.
If the alleged harasser is a fellow student, the Dean of
Students may take steps to immediately end all
required contact between the accused and the accuser,
and instruct the accused to cease all contact with the
accuser.
The person receiving the complaint must provide the
complainant with a copy and explanation of this policy
statement. Any administrative officer receiving a
complaint under this policy must provide notice to the
University's Human Resource Management Office that
an allegation of sexual harassment has been made. If
the alleged harasser is a student, the Dean of Students
Office must be notified of the complaint.
Although considerable latitude exists in how a charge
of sexual harassment is addressed informally, informal
resolution requires that the accuser, the accused and,
if appropriate, the accused's administrative superior
all be willing to seek informal resolution of the matter.
Any of the parties may decline informal resolution
154a

process. If the matter is resolved informally, both the
accused and the accuser should signify in writing their
agreement with the terms of informal resolution and
this agreement should be witnessed in writing by the
Dean of Students and the accused's administrative
superior, if appropriate. The Dean of Students Office
or, in the case of an employee, Human Resource
Management, must be consulted prior to written
resolutions and receive a copy of the resolution.
B. Formal Procedures
If an attempt at informal resolution is unsatisfactory
to the complainant, the accused, the unit head, or the
accused's superior; if the sexual harassment continues
after informal procedures have been exhausted; or if
the complainant, the accused, the unit head, or the
accused's superior is unwilling or unable to deal with
the situation under the guidelines for informal
procedure, the complainant may file a formal charge of
sexual harassment.
Formal procedures require the complainant to file a
signed, written statement alleging sexual harassment,
which must include the following: the name of the
complainant; the name of the accused; the nature of
the alleged violation as defined in this policy
statement; the date(s) of the occurrence(s); the names
of any witnesses to the occurrence(s), the place(s) of
the occurrence, and the resolution(s) sought.
The Dean of Students and the Director of Human
Resource Management are responsible for
155a

administration of the University's policy on sexual
harassment. Specific responsibility to investigate a
charge of sexual harassment brought against an
employee (including member of the faculty and
academic staff) under PS-73 has been delegated to the
Assistant Director for Employee Relations (304
Thomas Boyd Hall, 504/388-8434). Responsibility to
investigate a charge of sexual harassment brought
against a student under PS-95 rests with the Dean of
Students Office (122 Johnston Hall, 504-388-4307).
The individual investigating the charge will advise and
assist the student in understanding the review
procedure. Formal charges of sexual harassment
brought against a student will be investigated and
resolved in accordance with the provision of the Code
of Student Conduct.
The individual receiving the statement will
immediately notify the unit head or supervisor of the
person against whom the allegation is made. If
appropriate, that unit head or supervisor should
immediately suspend any authority relationship
between the complainant and the accused.
The use of this formal procedure in no way limits a
resolution that is agreeable to all parties at any stage.
However, any such mutually agreed resolution must be
documented in writing and signed by the accuser, the
accused, and the unit head or administrative superior
of the accused. For both the formal and informal
procedure: when a member of the faculty or academic
staff is charged with sexual harassment, the Vice
Chancellor for Academic Affairs and Provost will be
156a

informed.
RETALIATION:
Employees, students and other individuals involved in
a sexual harassment complaint or investigation are
protected from retaliation of any form. Any individual
violating the prohibition against retaliation may be
subject to disciplinary action.

157a

